                                                                    Office Of inspectOr General
                                                                    U.S. Department of Transportation




                                             Semiannual Report to Congress
                                             April 1, 2009 – September 30, 2009




   U.S. Department of Transportation
      Office of Inspector General
     1200 New Jersey Avenue, S.E.
        Washington, D.C. 20590

Hotline to report fraud, waste, and abuse:
      Phone     800-424-9071
         Fax    540-373-2090
       Email    hotline@oig.dot.gov
 OIG Website    http://www.oig.dot.gov
                                                                Table of Contents

From the Inspector General  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . iii

American Recovery and Reinvestment Act of 2009 (ARRA)  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

           In Focus: Oversight of ARRA Projects  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

           ARRA Oversight Activities  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5


Audits and Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7

           Transportation Safety Oversight .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7

           In Focus: Vulnerabilities in Safety Oversight  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7

           Aviation and Special Programs  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 11

           Highway and Transit Programs  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 21

           In Focus: Highway Trust Fund Solvency  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 21

           Rail & Maritime Programs and Economic Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 33

           Financial and Information Technology  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37

           Department-Wide Issues  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 41


Other Accomplishments  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 43

Work Planned and in Progress  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 47

           Aviation and Special Programs  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 47

           Highway and Transit Programs  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 50

           Rail & Maritime Programs and Economic Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 52

           Financial and Information Technology  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 54

           Acquisition and Procurement .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 56


Statistical Performance Data  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 59

           Summary of Performance  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 59

           Audits  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 60

           Completed OIG Reports  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 60

           OIG Reports with Recommendations that Questioned Costs  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 61

           OIG Reports with Recommendations that Funds Be Put to Better Use  .  .  .  .  .  .  .  .  . 62

           OIG Reports Recommending Changes for Safety, Economy, or Efficiency .  .  .  .  .  .  . 63

           Management Decisions Regarding OIG Recommendations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 64

           OIG Published Reports  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 65

           Office of Inspector General Congressional Testimonies  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 72

           Unresolved Recommendations Over 6 Months Old .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 74

           Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 76

           Judicial and Administrative Actions  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 76

           Profile of All Pending Investigations as of September 30, 2009 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 77


Mission and Organization  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 79

Contacts  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 82

Abbreviations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 83

                                                    From the Inspector General




I am pleased to present the Department of Transportation (DOT), Office of Inspector General (OIG)
Semiannual Report to Congress for the 6-month period ending September 30, 2009 . Our audit and in-
vestigative work continues to support the Department’s goals of safety, reducing congestion, global con-
nectivity, environmental stewardship, security, and organizational excellence . During the past 6 months,
we issued 61 reports with 138 recommendations, including financial recommendations totaling nearly
$25 million. Our investigative work resulted in 63 convictions and a total of $244 million in fines,
restitutions, and recoveries .

The second half of fiscal year 2009 presented unique challenges for the Department and OIG. The
implementation of historic initiatives under the American Recovery and Reinvestment Act (ARRA) of
2009 demanded unprecedented levels of transparency and accountability . The Department has been
proactive on several fronts, including establishing the Transportation Investment Generating Economic
Recovery team to coordinate DOT’s role in the recovery program, ensure accountability, and develop
a risk management and financial reporting plan.

For OIG, our auditors and investigators have worked diligently to maximize the return on Congress’
investment in our office to help DOT effectively oversee $48 billion in ARRA funds provided for trans-
portation programs . Our efforts have paid off . We reported on a number of areas that DOT must
focus on to successfully manage the large infusion of funds and meet new statutory and Office of
Management and Budget requirements . We also issued several ARRA advisories to alert the Secretary
of business risks needing immediate attention—including the risk of improper payments and awarding
ARRA contracts and grants to dishonest, unethical, or irresponsible businesses and individuals . Our
investigators alone initiated 12 ARRA-related criminal investigations—6 of which have been accepted
for prosecution—and conducted about 400 training and outreach sessions to over 7,000 Federal,
state, and local officials and industry representatives in all 50 states, the District of Columbia, and
Puerto Rico .

Our work covered a range of other challenges facing DOT as well as progress made . We continued to
focus on significant aviation issues, such as overseeing on-demand operators, addressing pilot and
controller fatigue, improving runway safety, and advancing Federal Aviation Administration moderni-
zation efforts to enhance mobility and reduce air traffic congestion through its Next Generation Air
Transportation System .




                                                                        Semiannual Report to Congress  •  iii
 We also recommended critical surface safety improvements, including targeting unsafe motor ca-
 rriers and commercial drivers for enforcement, and continued to monitor the Federal Motor Carrier
 Safety Administration’s implementation of Cross-Border trucking provisions and the Federal Highway
 Administration’s efforts to restore our Nation’s aging bridges. The solvency of the Highway Trust
 Fund—another subject of our audit work—will be key to addressing some of these issues .

 Establishing a robust information security program to support the Department’s mission also warranted
 continued scrutiny. Of particular concern are security gaps that make air traffic control systems vul-
 nerable to cyber attacks and the need to secure personally identifiable information. Finally, we found
 that the Department must take action to ensure a sufficient and competent acquisition workforce.

 Our work reflects our strong commitment to provide in-depth analyses on key transportation issues
 to serve and inform the public and congressional lawmakers . I commend and thank the hard-working
 OIG staff for their outstanding efforts and dedication to our mission . I would also like to commend
 Secretary LaHood for his leadership and tireless efforts in these challenging times . I look forward to
 continuing to work closely with him, his team, and modal administrators to provide Americans with a
 21st century transportation system that meets the national objectives of general welfare, economic
 growth and stability, and the security of the United States .




 Calvin L . Scovel III




iv   •  From the Inspector General
                                                        American Recovery and
                                                       Reinvestment Act of 2009




                                       American Recovery and
                              Reinvestment Act of 2009 (ARRA)
IN FOCUS: OveRSIght OF ARRA PROjeCtS


The American Recovery and Reinvestment Act           for an unprecedented level of accountability and
of 2009 (ARRA) designated $48 billion to the De-     transparency in the spending of ARRA funds, in-
partment for highway, transit, aviation, maritime,   cluding recognition of the critical role of agency
and rail programs. According to the Secretary        Inspectors General.
of Transportation, ARRA represents “the largest
investment in America’s roads, bridges, transit      Based on our prior and ongoing audits and in-
lines, and rail systems since the creation of the    vestigations, we determined that the Department
interstate highway system.” ARRA presents            will face three key challenges in carrying out its
daunting challenges for DOT by substantially         portion of the recovery program:
increasing funding for existing programs, man-
                                                      •	 overseeing grantees receiving ARRA fund-
dating the creation of new programs, and adding          ing;
extensive new reporting requirements for DOT
                                                      •	 implementing significant new reporting
and its grantees, such as the number of jobs
                                                         requirements and programs mandated by
created or preserved by recovery projects. The
                                                         ARRA; and
President and Congress also stressed the need
                                                      •	 combating fraud, waste, and abuse.


                                                                      Semiannual Report to Congress  •  1
 Since ARRA’s enactment last February, we have
 assembled a cross-modal team of auditors, ana-
 lysts, investigators, engineers, and attorneys to
 review and promptly report on DOT’s manage-
 ment of recovery program funds. Our audit and
 investigative strategy has three phases:

 Phase 1: Initial Measures and Activities

 Conducting scans of DOT’s ARRA-programs.
 We deployed teams to each Operating Admin-
 istration that received ARRA funding to assess
 their implementation efforts and identify vul-
 nerabilities that could impede DOT’s ability to
 (1) provide effective oversight to ARRA-funded
 projects, and (2) meet new requirements man-
 dated by ARRA and the Office of Management               Phase 2: Current Measures and Activities
 and Budget.
                                                          Issuing ARRA advisories.           Issuing timely
 Conducing outreach with Federal, state, and              ARRA-related reports to DOT and Congress is
 local officials. Since ARRA’s passage, we have           a priority. To bolster this effort, we have been
 conducted approximately 190 briefings with a             publishing interim ARRA advisories to highlight
 total of more than 7,500 participants at all levels      key results of ongoing audits that may warrant
 of government and industry groups. Outreach              immediate attention by DOT agencies.
 was launched in March 2009, when the Inspec-
 tor General and the Secretary co-hosted a fraud          Pursuing criminal and civil investigation.
 prevention briefing for DOT Headquarters’ staff,         Through the end of September 2009, our inves-
 a video of which is available on the Internet.           tigative offices had 12 open ARRA investiga-
 OIG fraud awareness and prevention briefings             tions, eight of which are associated with Federal
 provided examples of conflicts of interest and           Highway Administration grants and four with
 schemes that may be used to illicitly obtain             Federal Aviation Administration grant programs.
 money from ARRA funded projects, including               The investigations involve allegations of disad-
 bid rigging, disadvantaged business enterprise           vantaged business enterprise violations, false
 fraud, product substitution, false claims, false         claims/statements, conflict of interest, Recovery
 certifications, false testing, overcharging for la-      fund ineligibility, and anti-trust violations. Six
 bor and equipment, and bribery and kickbacks.            of our 12 open ARRA investigations have been
 OIG has also participated in ARRA-related                accepted for prosecution by the Department of
 forums and coordinated with the accountability           Justice, one has been referred for administrative
 and law enforcement communities.                         action, and five are pending referral to a pros-
                                                          ecutor.

2   •  American Recovery and Reinvestment Act of 2009 (ARRA)
                                     American Recovery and Reinvestment Act of 2009

Leveraging existing work on ARRA-funded
programs. A number of audits undertaken be-
fore the passage of ARRA directly relate to the   Recovery Working Group, which is comprised of
DOT programs that received additional funding     28 Inspectors General responsible for oversee-
in ARRA. Any actions that DOT takes to improve    ing their agency’s ARRA funds.
these programs based on our findings and
recommendations may increase the likelihood       Phase 3: Proactive and Future Activities
that ARRA dollars will be spent efficiently and
effectively.                                      Initiating new audits and investigations that
                                                  target high-risk areas. In addition to our ongo-
Working with the Recovery Accountability          ing work, we initiated ARRA-specific audits and
and Transparency Board. The Board—which           investigations. We will identify and contact the
is comprised of a Chairman and 12 Inspectors      project managers of the high-dollar and/or high-
General from various government agencies, in-     risk ARRA transportation projects. By working
cluding Transportation—has two principal goals:   closely with these key personnel we will make
(1) preventing and detecting waste, fraud, and    risk assessments to explore areas that may be
mismanagement; and (2) providing the American     vulnerable to possible fraud on these projects.
people with transparency on how ARRA funds        In addition to opening investigations of any
are being used by states, local governments,      substantive allegation of fraud arising from our
and private recipients. To achieve these goals,   proactive efforts, we will continue to open inves-
the Board has established three committees to     tigations of credible allegations of fraud that we
address accountability, technology, and over-     receive through other means.
sight of ARRA funds. DOT’s Inspector General
is the Chairman of the Recovery Funds Working     Providing proactive oversight of ARRA
Group Committee and the Co-Chairman of the        programs. We will continue to independently
                                                  assess risks, develop relationships with agency
                                                  officials, and collect data that can be analyzed
                                                  to identify the potential for fraud. We recognize
                                                  that there is a need for a consistent, methodical
                                                  approach to carrying out oversight among our
                                                  seven regions. Key elements of this approach
                                                  include
                                                   •	 contacting project managers of high-dollar
                                                      or high-risk ARRA projects in each state
                                                      and large cities within a region; identifying
                                                      the prime contractors, subcontractors, and
                                                      disadvantaged business enterprises;
                                                   •	 completing background checks on busi-
                                                      nesses receiving ARRA contracts for previ-
                                                      ous criminal activity or suspensions and
                                                      debarments;


                                                                   Semiannual Report to Congress  •  3
                                                           •	 In addition to our ongoing audits that relate
                                                              to ARRA—including DOT’s use of award
  •	 discussing with project managers potential               fee contracts, Amtrak capital, FHWA’s
     problem areas on current ARRA contracts,                 oversight of highway bridge program
     such as change orders or supplemental                    funds, and the National Bridge Inspection
     agreements; and                                          Program—we have initiated new audits on
                                                              issues	identified	in	our	agency	scans.		These
  •	 monitoring the progress of ARRA projects
                                                              include FAA’s process for awarding grants
     within a particular region to check for indi-
     cators of common fraud schemes.                          through the Airport Improvement Program,
                                                              and capital assistance for the High Speed
                                                              Rail Corridors and Intercity Passenger Rail
 Continuing outreach. We anticipate continu-
                                                              Service Programs. n
 ing our outreach efforts with a special emphasis
 on those Operating Administrations and DOT
 grantees that have not received our message
 to date and/or that appear to have a need to
 strengthen its oversight.

 Our three-phase strategy has resulted in the
 timely identification and reporting of critical
 ARRA concerns:
  •	 Our scans pointed to vulnerabilities in project
     selection and oversight processes for exist-
     ing programs as well as vulnerabilities in es-
     tablishing new programs created by ARRA,
     including a large high-speed passenger rail
     initiative. We	 also	 identified	 challenges	 in	
     meeting substantial new reporting require-
     ments designed to promote accountability
     and transparency.
  •	 Since ARRA’s passage, we have issued
     three advisories, including advisories on
     the Airport Improvement Program, DOT’s
     suspension and debarment program, and
     sampling of improper payments. Our ad-
     visory on the suspension and debarment
     program emphasized the need for timelier
     processing and reporting of DOT suspen-
     sion and debarment actions to help protect
     the government from doing business with
     dishonest, unethical, or irresponsible busi-
     nesses and individuals.



4   •  American Recovery and Reinvestment Act of 2009 (ARRA)
                                         American Recovery and Reinvestment Act of 2009

ARRA Oversight
Activities                                             and programs.

Testimony: American Recovery                           Testimony: American Recovery
and Reinvestment Act: DOT’s                            and Reinvestment Act: DOT’s
Implementation Challenges and                          Implementation Challenges and
the OIG’s Strategy for Continued                       the OIG’s Strategy for Continued
Oversight of Funds and Programs                        Oversight of Funds and Programs
April 29, 2009                                         April 30, 2009
The Inspector General testified before the House
                                                       The Inspector General testified before the Senate
Committee on Transportation and Infrastructure
                                                       Committee on Appropriations, Subcommittee
on our March 31, 2009 audit report regarding the
                                                       on Transportation, Housing and Urban Devel-
challenges facing the DOT implementation of
                                                       opment, and Related Agencies on our March
the American Recovery and Reinvestment Act
                                                       31, 2009 audit report regarding the challenges
of 2009, as well as the OIG’s ongoing ARRA-
                                                       facing the DOT implementation of the American
related audits and investigative initiatives and its
                                                       Recovery and Reinvestment Act of 2009, as well
strategy for continued oversight of ARRA funds
                                                       as the OIG’s ongoing ARRA-related audits and
                                                       investigative initiatives and its strategy for con-
                                                       tinued oversight of ARRA funds and programs.


                                                       ARRA Advisory: DOT’s Suspension and
                                                       Debarment Program
                                                       May 18, 2009

                                                       The Inspector General issued an ARRA Advisory
                                                       to alert DOT officials of risks identified within the
                                                       DOT’s Suspension and Department Program.
                                                       We found that the Department’s Suspension
                                                       and Debarment Program needs to ensure
                                                       timelier processing and reporting of suspen-
                                                       sion and debarment actions. Inattention to this
                                                       vulnerability creates the risk that government
                                                       funds, including ARRA program dollars, will
                                                       be awarded to businesses and individuals that
                                                       have committed fraud or are otherwise known
                                                       to be irresponsible. We suggested the Office
                                                       of the Secretary of Transportation (1) revise the

                                                                         Semiannual Report to Congress  •  5
                                                          ARRA Advisory: The FAA’s Award
                                                          of ARRA Grant Funds to Airport
 Suspension and Debarment Program to better
 prevent irresponsible businesses and individuals         Improvement Program Projects
 from conducting business with the Department,            August 6, 2009
 and (2) assign responsibility to a specific office
 to monitor and oversee Operating Administra-             The Inspector General issued an ARRA Advisory
 tions’ implementation and compliance with the            to alert DOT officials of risks identified within
 Program.                                                 FAA’s award of Recovery Act funds to Airport
                                                          Improvement Program projects. The Recov-
                                                          ery Act calls for the FAA to award $1.1 billion
 ARRA Advisory: Sampling of Improper                      in grants to airport operators for projects that
 Payments in Major DOT Grant                              improve airport safety, capacity, and security.
                                                          When reviewing FAA’s process for selecting
 Programs                                                 and funding the projects, we found that FAA
 June 22, 2009                                            selected some low-priority projects that provide
                                                          questionable long-term economic benefits—a
 The Inspector General issued an ARRA Advisory
                                                          key Recovery Act requirement. Also, in some
 to alert DOT officials of risks identified with the
                                                          cases, FAA awarded money to recipients with
 sampling of improper payments in major Depart-
                                                          histories of grant-management problems, which
 ment grant programs. The Department will dis-
                                                          raised doubts about their ability to administer
 tribute 77 percent (approximately $37 billion) of its
                                                          effectively their Recovery funds. We urged
 total Recovery Act funding through major grants
                                                          the FAA to revise its guidance on selecting
 programs. The Department has determined that
                                                          Recovery-related airport improvement projects,
 four of its major grants programs are at risk and
                                                          and to ensure that funding is awarded only for
 susceptible to improper payments, and therefore
                                                          the highest-priority projects with demonstrated
 need to be tested annually. We reviewed the
                                                          economic merit. In addition, we suggested that
 Department’s sampling for improper payments
                                                          FAA provide stronger oversight of the entities
 made to grant recipients in Fiscal Year 2008 and
                                                          receiving grant money. n
 found that the results were not credible due to
 an extremely small sample size and the lack of
 randomness in sample selection. Consequently,
 the test results did not accurately represent the
 seriousness and extent of the Department’s im-
 proper payments. Because the Department is
 about to award a new contract for testing Fiscal
 Year 2009 payments, we emphasized the need
 for the Department to increase it oversight of the
 contractor’s sampling to develop a more reliable
 test for improper payments.




6   •  American Recovery and Reinvestment Act of 2009 (ARRA)
                                                         Audits and Investigations




                                    Transportation Safety Oversight
IN FOCUS:VUlNerAbIlItIeS IN SAFety OVerSIght

Safety is the Department’s primary mission and        Addressing Human Factors
involves all modes of transportation—air, high-
way, rail, transit, maritime, and pipeline. OIG       Human factors have been on the National Trans-
carries out audits and investigations to identify     portation Safety Board’s (NTSB) Most Wanted
vulnerabilities in the Department’s safety over-      List since the list was created 19 years ago. Of
sight, and recommends actions for mitigating          particular concern are flight crew and air traffic
associated risks. At the direction of the Inspector   controller fatigue and lack of training. NTSB’s
General, in August 2009, we established a task        preliminary investigation into the cause of the
force to develop a comprehensive catalog of           Continental Express flight 3407 accident, which
vulnerabilities to safety oversight for each trans-   resulted in 50 fatalities, found some evidence
portation mode. This past year, we also issued a      that suggested pilot fatigue and lack of training
number of reports and have a series of ongoing        may have contributed to the crash. These is-
work focusing on safety oversight. Three cross-       sues are particularly critical for regional carriers,
cutting areas are of key concern: addressing hu-      which typically perform many short and medium
man factors, applying a data-driven, risk-based       flights to hub airports in a day. Multiple studies
approach to oversight, and improving regulatory       by agencies such as the National Aeronautics
enforcement.
                                                                        Semiannual Report to Congress  •  7
                                                                         highway fatalities in 2008 were related to crashes
                                                                         involving large trucks or buses. To reduce these
 and Space Administration have concluded that                            fatalities, the Department must take stringent
 these types of operations can contribute to                             action against carriers that repeatedly violate
 pilot fatigue. Regional carriers were involved in                       safety regulations—an action we recommended
 the last six fatal Part 1211 accidents, and NTSB                        in 2006—and ensure that unsafe carriers are
 cited pilot performance as a potential factor in                        placed out of service and not re-issued authority
 four of those accidents. Despite these findings,                        under new identities. The Department must also
 FAA has yet to revise its rules governing crew                          improve enforcement and data systems used
 rest requirements. Fatigue among air traffic                            to oversee the motor carrier industry and com-
 controllers is also a major air safety issue. For                       mercial motor vehicle drivers. Finally, the De-
 example, in its investigative report, NTSB noted                        partment must address transit safety concerns
 that the one controller on duty at the time of the                      related to operator performance, physical infra-
 August 2006 crash of Comair Flight 5191 had only                        structure, fleet operations and control systems,
 2 hours of sleep prior to his shift. Our June 2009                      and management of rail cars and transit buses.
 report on controller fatigue found that minimal                         The Department established a multimodal team
 hours between shifts, counter rotational shifts                         of safety officials and experts to address transit
 with progressively earlier start times, scheduled                       safety and statutory authority reform. However,
 overtime, and on-the-job training likely contribute                     to define a transit safety oversight structure, the
 to controller fatigue.2 FAA is currently amending                       Department and safety officials must overcome
 its policies governing controller rest require-                         significant challenges—including closing gaps
 ments; however, changes have not yet been                               in regulatory and enforcement authority, and
 implemented.                                                            identifying safety practices that can be applied
                                                                         effectively by all transit agencies.
 Surface transportation also remains a key area
 of safety concern. Alcohol-related fatalities
 accounted for 32 percent of all traffic fatalities
 in 2007 and 2008, and the percentage of unre-
 strained passenger fatalities rose to 55 percent
 of all passenger fatalities in 2008. Our work has
 shown that requiring states to use more mean-
 ingful performance indicators linked to proven
 strategies would improve the Department’s
 and states’ ability to measure the effectiveness
 of state strategies and the use of resources.
 Targeting unsafe motor carriers and commercial
 drivers also continues to be a priority. One in eight
 1
   14 CFR 121 Operating Requirements: Domestic, Flag, and
 Supplemental Operations. This FAA regulation governs com-
 mercial air carriers, including regional air carriers, with primarily
 scheduled flights.
	
 2
   Air Traffic Control: Potential Fatigue Factors, OIG Report No. 

 AV-2009-065 issued June 29, 2009.


8   •  Vulnerabilities in Safety Oversight
                                                         In Focus:Vulnerabilities in Safety
                                                                                Oversight
Applying a Data-Driven, Risk-Based Approach
to Oversight
                                                                    portation Oversight System. We are currently
                                                                    conducting an audit of this system, and plan on
To prioritize safety concerns and target areas of
                                                                    issuing our results early next year.
greatest risk, our work has consistently shown
that the Department needs to implement a
data-driven, risk-based approach to oversee
programs. In January 2009, for example, we
reported that the Federal Highway Administra-
tion (FHWA) continues to lack such an approach
in overseeing the National Bridge Inspection
Program3 to assess and prioritize safety risks
in the Nation’s bridges—one-quarter of which
were determined to be deficient by the American
Society of Civil Engineers (ASCE) in 2009.

Our review of FAA’s Aviation Safety Action Pro-
gram (ASAP)—a joint FAA and industry program
that allows aviation employees to self–report
safety violations without fear of reprisal—similarly
                                                                    Improving Regulatory Enforcement
showed that FAA was not using data from the
program to target highest risk areas.4 ASAP is a
potentially valuable safety tool, but FAA had not                   We have also identified the need for greater en-
devised a method to fully compile data reported                     forcement of existing regulations or identifying
through ASAP for analysis on a national level.                      where regulations need to be changed to keep
Therefore, little was understood about nation-                      pace with industry. For example, in July 2009
wide trends in the types of violations reported                     we identified the need to strengthen FAA regula-
under ASAP, and ASAP reports did not help                           tions and oversight of on-demand carriers.5 In
FAA determine whether systemic, nationwide                          2007 and 2008, small, commercial on-demand
causes of safety violations were identified and                     carriers experienced 33 fatal accidents result-
addressed. Both FHWA and FAA agreed with                            ing in 109 deaths—a bleak safety record when
our recommendations and are taking appropri-                        compared to large U.S. commercial air carriers,
ate actions.                                                        which had no passenger deaths in the same
                                                                    period. On-demand carriers typically operate in
                                                                    a riskier environment than commercial aircraft.
FAA has implemented a risk-based approach
                                                                    Despite these risks, on-demand operators have
for overseeing air carrier safety—the Air Trans-
                                                                    less restrictive regulations and oversight than
3
  National Bridge Inspection Program: Assessment of FHWA’s          commercial carriers. For example, on-demand
Implementation of Data–Driven, Risk–Based Oversight, OIG            regulations allow lower minimum pilot experi-
Report No. MH-2009-013 issued January 12, 2009.
	
4
  FAA Is Not Realizing the Full Benefits of the Aviation Safety 
   5
                                                                     On-Demand Operators: Less Stringent Safety Requirements
Action Program, OIG Report No. AV-2009-057, issued May 14, 
        and Oversight than Large Commercial Carriers, OIG Report No.
2009.                                                               AV-2009-066 issued July 13, 2009


                                                                                         Semiannual Report to Congress  •  9
                                                                Yet we found that PHMSA grants special
                                                                permits and approvals without exercising its
                                                                regulatory authority to review applicants’ safety
                                                                histories and without consistent coordination
                                                                with partner safety agencies. Despite these
                                                                weaknesses, PHMSA does not target individu-
                                                                als and companies that hold special permits and
                                                                approvals for safety compliance reviews. These
                                                                issues—along with safety concerns previously
                                                                raised by our office, FAA, and NTSB—call into
                                                                question the effectiveness of PHMSA’s process
                                                                for granting special permits and approvals. The
                                                                Secretary, Deputy Secretary, and FAA Adminis-
                                                                trator directed PHMSA and FAA to formalize ac-
                                                                tion plans addressing these and other concerns
                                                                regarding the Special Permits and Approvals
                                                                Program and On-Demand Carriers.

  ence for flight crews than commercial air carriers,           We also identified weaknesses in the Commer-
  and maintenance inspection requirements are                   cial Driver’s License (CDL) Information System,
  less restrictive for smaller on-demand aircraft.              including state tardiness in posting commercial
  In addition, many of the existing regulations for             driver convictions and inadequate system se-
  on-demand operators have not been updated to                  curity. One of our numerous criminal investiga-
  address changes in the industry. Some regula-                 tions of fraudulent CDL schemes led to retesting
  tions date as far back as 1978.                               more than 5,000 people who trained at a private
                                                                driving academy and were issued fraudulent
  In 	 September 2009, we testified before the                  CDLs. The Department also lacks reliable traffic
  House Transportation and Infrastructure Com-                  conviction data on holders of driver’s licenses
  mittee regarding safety issues in the Pipeline                from Mexico, diminishing its ability to effectively
  and Hazardous Materials Safety Administra-                    oversee cross-border trucking.
  tion’s (PHMSA) Special Permits and Approvals
  Program.6 Special permits exempt their holders                We have a series of ongoing audits addressing
  from certain Federal regulations. Approvals are               different aspects of the Department’s regula-
  specific provisions that are written into the regu-           tory enforcement and programmatic oversight,
  lations that require approval from the Associate              including the following:
  Administrator in order for a person to perform a
  certain function or action. These include such                 •		 FAA’s joint government/industry plan for 

  things as non-explosive and fireworks classifi-                    improving runway safety

  cations, new cylinder designs, and other excep-                •		 The National Highway Traffic Safety
  tions to the regulations.                                          Administration’s oversight of Research and
 6
   PHMSA’s Process for Granting Special Permits and Approvals        Development Projects
 for Transporting Hazardous Materials Raises Safety Concerns,
 OIG Testimony No, CC-2009-096 September 10, 2009.


10   •  Vulnerabilities in Safety Oversight
                                                          Audits and Investigations




                                        Aviation and Special Programs

Audits                                                 California air traffic control facilities and to
                                                       offer recommendations as needed. We found
Controller Staffing at Key California                  that while FAA has taken steps at LAX, SCT,
                                                       and NCT to offset controller attrition, all three
Air Traffic Control Facilities                         facilities are facing increased numbers of new
April 23, 2009                                         controllers over the next 2 years. We recom-
                                                       mended that FAA take several actions in the fol-
We issued our report on controller staffing at
                                                       lowing areas to maximize its staffing efforts and
three key California air traffic control facilities:
                                                       maintain enough veteran controllers at these
the Los Angeles International Airport Traffic
                                                       facilities: (1) make SCT and NCT a top priority in
Control Tower (LAX), the Southern California
                                                       the Agency’s ongoing efforts to validate staffing
Terminal Radar Approach Control (TRACON)
                                                       ranges at large TRACON facilities; (2) expand
(SCT), and the Northern California TRACON
                                                       the use of relocation and retention incentives
(NCT). We conducted this review at the request
                                                       to maintain a cadre of experienced controllers
of Senator Dianne Feinstein of California. Our
                                                       at LAX and SCT; (3) provide enough instructors
audit objective was to evaluate the Federal
                                                       and other training resources at all three facili-
Aviation Administration’s plans for ensuring ad-
                                                       ties to handle the influx of new controllers; and
equate air traffic controller staffing at the three
                                                       (4) ensure appropriate use of overtime hours,

                                                                        Semiannual Report to Congress  •  11
                                                      carriers and FAA without fear of reprisal. We
                                                      conducted this audit following a complaint from
  which increased significantly at all three fa-      a FAA inspector regarding the acceptance of a
  cilities over the last 2 years. FAA agreed with     fatal accident into the ASAP. Our objective was
  our recommendations and has either taken or         to assess FAA’s implementation of ASAP and
  planned corrective actions.                         identify any improvements necessary for FAA
                                                      to obtain maximum safety benefits from the
                                                      program. We found that ASAP is a potentially
  Aviation Industry Performance:                      valuable safety tool; however, FAA is not realizing
  A Review of the Aviation Industry in                the full benefits of the program. To maximize the
  2008                                                safety benefits from ASAP, we recommended that
                                                      FAA (1) revise current ASAP guidance to exclude
  May 06, 2009
                                                      accidents from the program and clarify what
  We issued the tenth in a series of our periodic     constitutes an “intentional disregard for safety;”
  updates to our Aviation Industry Performance        (2) require that FAA representatives on the Ex-
  Report. This report provided a comprehensive        ecutive Review Committee (ERC) receive ASAP
  analysis of aviation industry trends in 2008 and    reports in a timely manner and concurrently with
  their impact on aviation system performance,        other ERC members; (3) modify Advisory Circular
  demand and capacity for domestic and inter-         120-66B to clarify that ASAP is not an amnesty
  national flights, and air service in small com-     program and that employees submitting ASAP
  munities. Airlines faced many challenges in         reports are subject to administrative action by
  2008 – unprecedented fuel prices in the first       FAA and corrective action by the air carrier;
  three quarters of the year were followed by a       (4) revise its ERC training to emphasize the need
  worsening global economic recession in the          for FAA’s ERC members to remain impartial and
  fourth quarter. Both of these led to leading net-   require periodic refresher training in this area;
  work, low cost and regional airlines reporting      (5) clarify field office management responsi-
  $5.8 billion in operating losses for the year and   bilities to ensure personal relationships between
  multiple airline bankruptcies. This report looked   inspectors and airline personnel do not influence
  at the industry’s response to these operating       decisionmaking; (6) standardize current ASAP
  challenges and the impact of the measures           guidance regarding quarterly report submissions
  implemented by airlines on air service across       and ensure they include, at a minimum, summary
  the National Airspace System and the flying         information regarding the ASAP reports submit-
  public in general.                                  ted; (7) require inspectors to examine repetitive
                                                      reports of safety concerns and enhancements to
                                                      ensure that corrective actions are completed in
  FAA Is Not Realizing the Full Benefits              a satisfactory manner; and (8) develop a central
  of the Aviation Safety Action Program               database of all air carriers’ ASAP reports that the
  May 14, 2009                                        Agency can use for trend analysis at a national
                                                      level. FAA concurred with recommendations
  We issued our report on the FAA’s Aviation Safety   2 through 8 and partially concurred with recom-
  Action Program (ASAP), which allows aviation        mendation 1. FAA has proposed acceptable
  employees to self–report safety violations to air   actions and target completion dates.

12   •  Aviation and Special Programs
                                                        Audits and Investigations
                                                                Aviation and Special Programs


                                                     Rulemaking Committee to reduce delays in the
                                                     New York area, pursue short–term initiatives
                                                     that can boost capacity systemwide before FAA
                                                     implements Next Generation Air Transportation
                                                     System in 2018, and finalize a rulemaking to
                                                     enhance airline passenger protections.


                                                     Training Failures Among Newly Hired
                                                     Air Traffic Controllers
                                                     June 08, 2009

                                                     We issued our report on training failures among
                                                     newly hired air traffic controllers. We conducted
                                                     this review at the request of Jerry F. Costello,
                                                     Chairman of the House Transportation and Infra-
                                                     structure Committee’s Aviation Subcommittee.
                                                     The Chairman expressed specific concerns that
Progress and Remaining Challenges in                 the FAA was facing a high number of training
                                                     failures among newly hired air traffic control-
Reducing Flight Delays and Improving                 lers, especially at some of the busiest and most
Airline Customer Service                             complex facilities. Our audit objectives were
May 20, 2009                                         to determine (1) the training failure rate among
                                                     newly hired air traffic controllers, and (2) the
The Inspector General testified before the House     common causes and factors that are contribut-
Transportation and Infrastructure Committee’s        ing to this rate. We found that FAA’s reported
Aviation Subcommittee on DOT’s and FAA’s             rate of training failures is not accurate because
progress and remaining challenges in reducing        (1) FAA was not tracking the training failures
flight delays and improving airline customer         among the new controllers as a separate metric;
service. In 2008, there were fewer flight delays     (2) FAA’s current rate was based on FY 2007
and customer complaints than in 2007, but this       training failures and would likely increase as FAA
mainly resulted from airlines’ flight cutbacks       hires more new controllers between FY 2009 and
to offset higher fuel prices and the economic        FY 2017; (3) FAA did not have a uniform definition
downturn. Despite the overall decrease in airline    of training failures and other types of attrition;
delays, delays continued at some larger, con-        and (4) FAA’s training failure data in the National
gested airports, which can affect flights through-   Training Database were incomplete, inaccurate,
out the system. The Inspector General noted          or understated. To address the second part of
key actions DOT and FAA could take to prepare        the Chairman’s request, we examined a series
for a rebound in air travel: reevaluate the          of factors that could indicate potential trends
77 initiatives recommended by DOT’s Aviation

                                                                      Semiannual Report to Congress  •  13
                                                        Subcommittee as a result of a National Trans-
                                                        portation Safety Board (NTSB) hearing in May
  or root causes of training failures. We found,        2009 that highlighted pilot training and fatigue
  however, that it was premature to make such           issues following the crash of Colgan flight 3407.
  conclusions since, at the time of our review,         The OIG’s review will focus on (1) aspects of
  FAA was still in the early stages of its hiring and   pilot training, such as FAA’s standards for and
  training efforts. We are further examining this       oversight of certification of commercial pilot
  issue as part of a separate review requested by       training; (2) FAA regulations and airline policies
  the Chairman. Our recommendations to FAA              regarding crew rest requirements; and (3) pos-
  focused on developing procedures to obtain            sible correlations between accidents and pilot
  accurate data on training failures in order to        experience and compensation.
  effectively monitor and improve its controller
  training program. FAA concurred with all of our
  recommendations.
                                                        Regional Air Carriers and Pilot
                                                        Workforce Issues
                                                        June 11, 2009
  The FAA’s Role in Safety Oversight of
  Air Carriers                                          The Inspector General testified before the
  June 10, 2009                                         House Transportation and Infrastructure Com-
                                                        mittee, Subcommittee on Aviation regarding
  The Inspector General testified before the            regional air carriers, pilot workforce issues, and
  Senate Subcommittee on Aviation Operations,           concerns with FAA oversight of the aviation
  Safety, and Security regarding the FAA’s role in      industry. The May 2009 NTSB hearing after
  the oversight of air carriers. The Inspector Gen-     the crash of Colgan flight 3407 highlighted the
  eral noted that while FAA had made progress to-       need to closely examine regulations governing
  ward improving aspects of its safety oversight,       pilot training and rest requirements and the
  there are still vulnerabilities that must be ad-      oversight necessary to ensure their compliance.
  dressed, especially in five critical areas:           This is a particular concern at regional carriers,
  risk–based         inspections,
  repair stations, aging air-
  craft, disclosures of safety
  violations made through the
  Aviation Safety Action Pro-
  gram, and internal reviews
  of whistleblower complaints.
  The Inspector General also
  noted operational differ-
  ences between regional and
  mainline carriers that could
  impact safety and initiated
  a review in this area. This
  review was requested by the


14   •  Aviation and Special Programs
                                                         Audits and Investigations
                                                                 Aviation and Special Programs
which constitute an increasing pro-
portion of U.S. operations. The Inspector
General noted several issues with regional and        and Chicago Air Route Traffic Control Center;
mainline carriers that could impact safety, such      and (2) identify what measures FAA had taken
as identified differences in operating environ-       to mitigate potential controller fatigue at these
ments and potential differences in pilots’ flight     locations. We identified a number of factors at
experience, training programs, fatigue levels,        these three facilities that could create potential
and compensation. Despite these differences,          fatigue conditions for controllers. These fac-
FAA maintains it has one level of safety for all      tors included: minimal hours between shifts;
types of air carrier operations. The Inspector        scheduled overtime; and on–the–job training,
General stated that while FAA has improved            which requires a high level of concentration
some aspects of its safety oversight, there are       and focus from the instructing controller. Fa-
still weaknesses in its oversight and incon-          cility personnel also identified other factors
sistencies in how its rules and regulations are       that could cause fatigue, including inadequate
enforced. Given the concerns with regional            staffing levels; increased work load (i.e., traffic
carriers noted by the NTSB and the vulner-            volume and complexity); and extended time on
abilities previously identified with FAA’s safety     position or lack of position rotation. While our
oversight, the Subcommittee requested that            review focused only on the three Chicago facili-
the OIG review aspects of pilot training and          ties, it is likely that the fatigue factors that we
rest requirements.                                    identified exist at other large air traffic control
                                                      facilities throughout the Nation. Our recom-
                                                      mendations focused on actions FAA needed to
Air Traffic Control:                                  take at the national level to mitigate potential
Potential Fatigue Factors                             fatigue factors and enhance the level of safety
June 29, 2009                                         of the National Airspace System. FAA generally
                                                      concurred with our recommendations.
We issued our report on fatigue factors that
could impact air traffic controllers. We con-
ducted this audit at three critical Chicago
                                                      Report on On–Demand Operators:
air traffic control facilities at the request of      Less Stringent Safety Requirements
Senator Richard Durbin of Illinois. These             and Oversight than Large Commercial
3 facilities are among the top ten busiest in the
United States, and Senator Durbin expressed
                                                      Air Carriers
concerns that staffing shortfalls, longer hours       July 13, 2009
on the job, and a growing shortage of certified
                                                      We issued our report on the FAA’s less stringent
controllers may be causing controller fatigue.
                                                      safety requirements and oversight for on–de-
Accordingly, our audit objectives were to
                                                      mand operators compared to larger, commer-
(1) identify and evaluate key factors that could
                                                      cial air carriers. We conducted this audit at the
cause controller fatigue at Chicago O’Hare In-
                                                      request of the Chairmen of the House Commit-
ternational Airport Air Traffic Control Tower, Chi-
                                                      tee on Transportation and Infrastructure and its
cago Terminal Radar Approach Control Facility,
                                                      Subcommittee on Aviation, who were concerned

                                                                       Semiannual Report to Congress  •  15
                                                       airspace through Area Navigation (RNAV) and
                                                       Required Navigation Performance (RNP). The
  with disparate regulatory requirements between       PAIGAE noted that RNAV and RNP are key to
  large commercial and on–demand operators             the Next Generation Air Transportation Sys-
  and the level of FAA oversight of on–demand          tem’s (NextGen’s) success and have shown
  operators. Our audit objectives were to              some benefits, but fundamental issues need to
  (1) evaluate the differences between FAA             be addressed. While RNAV and RNP have con-
  regulation and oversight for on–demand op-           siderable industry support, some stakeholders
  erators and larger, commercial air carriers; and     are dissatisfied with the FAA’s overall method
  (2) identify specific issues that may hinder FAA’s   for implementing these initiatives. Of particular
  oversight of on–demand operators. This report        concern is FAA’s practice of laying most “new”
  focused solely on the first objective. We found      routes over existing routes and the fact that air
  that on–demand operators did not have to meet        carriers are not using them. Stakeholders and
  many of the regulatory requirements that large,      FAA also disagreed on the potential role and
  commercial air carriers must follow. These           responsibilities of non–Government third par-
  operators also have more risk in their operating     ties in speeding the adoption of RNP. Unless
  environments and receive less oversight from         these are clearly defined, it will be difficult to
  FAA. Further, FAA did not effectively target in-     establish an effective oversight framework for
  spections to higher–risk on–demand operators.        third parties. To ensure the safe and effective
  We recommended that FAA revise outdated              implementation of RNAV and RNP–and to real-
  regulations and strengthen its oversight of          ize their full benefits–the PAIGAE stated that
  on-demand operators by (1) establishing mile-        FAA will need to focus on the following areas:
  stones to track the implementation of recom-         (1) aligning FAA goals with producing quality RNP
  mendations made by the Aviation Rulemaking           procedures that have significant benefits rather
  Committee and the NTSB, (2) implementing             than focusing on the number of procedures,
  an interim risk assessment oversight process,        (2)establishing priorities for new routes and fund-
  and (3) developing risk indicators for the new       ing requirements for related airspace redesign
  risk-based Part 135 oversight system. FAA            projects and systems that controllers rely on to
  concurred with all of our recommendations.           manage traffic, (3) performing cost–benefit anal-
                                                       yses in close coordination with all stakeholders
                                                       before and after implementing RNP procedures,
  Challenges in Implementing                           (4) ensuring controllers and pilots are aware
  Performance–Based Navigation in the                  of and trained on procedures before they are
  U.S.Air Transportation System                        implemented, and (5) developing and estab-
                                                       lishing a policy on how and to what extent third
  July 29, 2009
                                                       parties will be used to help support FAA’s Next-
  The Principal Assistant Inspector General for        Gen efforts and ensure an effective oversight
  Auditing and Evaluation (PAIGAE) testified           approach.
  before the House Transportation and Infra-
  structure Committee, Subcommittee on Avia-
  tion regarding the FAA’s efforts to modernize


16   •  Aviation and Special Programs
                                                       Audits and Investigations
                                                               Aviation and Special Programs
PHMSA’s Process for
Granting Special Permits and                        Investigations
Approvals for Transporting Hazardous
Materials Raises Safety Concerns                    Las Vegas Man Pleads Guilty to
September 10, 2009                                  Attempting to Board an Aircraft
The Inspector General testified before the          with a Pipe Bomb Consisting of
House Committee on Transportation and Infra-        Hazardous Materials
structure regarding the Pipeline and Hazardous      May 1, 2009
Materials Safety Administration’s (PHMSA)
Special Permits and Approvals Program. The          Steven Dion Nobles pled guilty on May 1 in U.S.
Inspector General highlighted concerns with         District Court, Eastern District of New York,
how PHMSA authorizes transport of hazardous         Central Islip, New York, to making a pipe bomb,
materials under these regulatory exemptions         following his indictment on numerous violations
across three areas: (1) PHMSA granted special       including the illegal transportation of hazardous
permits and approvals without assessing             materials. On October 16, 2008, Mr. Nobles
applicants’ prior incidents and enforcement         attempted to board a Southwest Airlines flight
violations or coordinating with other affected      with a pipe bomb in his carry–on luggage and
Operating Administrations; (2) PHMSA’s risk–        explosives (fireworks and nail–gun rounds) in
based oversight criteria did not target holders     his checked luggage. Mr. Nobles admitted that
of special permits and approvals for compliance     the bomb was made of hazardous materials and
reviews; and (3) PHMSA had not addressed            that he intended to use the bomb as part of a
longstanding safety issues raised by the OIG,       4th of July celebration in Las Vegas. This inves-
the FAA, and the NTSB. The Inspector General        tigation was conducted jointly by DOT/OIG and
stated that these issues called into question the   the Federal Bureau of Investigation (FBI).
effectiveness of PHMSA’s process for granting
special permits and approvals. PHMSA recently
developed an action plan to address these and
other issues in response to the OIG’s July 2009
management advisory and Departmental direc-
tion. n




                                                                     Semiannual Report to Congress  •  17
                                                      conspirators booked and flew approximately
                                                      100 illegal flights valued at more than $1 million
  Owner of New Jersey Airport Pleads                  during a period when PJM did not have an FAA
                                                      issued Part 135 Certificate, which would have
  Guilty to Charge of Theft of $375,000               permitted PJM to fly on–demand commercial
  in Airport Improvement Program (AIP)                flights. Budhan’s co-conspirators were indicted
  Funds                                               on charges of conspiracy, false statements,
                                                      and destruction of an aircraft. Sentencing for
  May 26, 2009
                                                      Mr. Budhan is pending. This investigation was
  Paul George Styger, owner of a local public         conducted by DOT/OIG with assistance from
  use airport in Sussex County, New Jersey            the FAA.
  (Sussex Airport, Inc.,) pled guilty on May 26
  in U.S. District Court, Newark, New Jersey,         Owner of Former FAA Repair Station
  to an Information charging him with one
  count of theft in connection with embezzling        Sentenced to $403,289 in Restitution
  more than $375,000 in FAA AIP grant funds.          and Three Years Probation
  Mr. Styger, as owner of Sussex Airport, Inc., ap-   June 22, 2009
  plied for and received approximately 6 FAA AIP
  grants totaling more than $1.3 million to perform   Jerry Roy Comeaux, owner of Quality Aircraft
  improvements at the Sussex airport. Mr. Styger      Support (QAS), a repair and overhaul aircraft
  failed to forward funds provided by the FAA to      parts business, pled no contest on June 22 in
  contractors who had completed improvements          U.S. District Court, Greenville, South Carolina,
  to the airport. This investigation was conducted    to a felony charge of fraud involving aircraft
  by the OIG with the assistance of the Sussex        parts. Mr. Comeaux was sentenced to pay
  County Prosecutor’s Office and the FAA.             approximately $403,289 in restitution to the vic-
                                                      tims and serve 3 years probation. Mr. Comeaux
                                                      had been licensed by the FAA as a repair sta-
  Co–Founder of Charter Jet Company                   tion but voluntarily surrendered his license in
  Pleads to Operating Commercial                      April 2006. Following surrender of his license,
  Flights Without License                             he continued to send out parts with fraudulent
                                                      forms that suggested QAS was licensed by the
  June 22, 2009
                                                      FAA. These parts were shipped to various com-
  Andre Budhan, a co–founder and manager of           mercial carriers in Texas, Florida, Illinois, Ohio,
  Platinum Jet Management (PJM), a defunct            and other locations throughout the country. This
  luxury charter jet company, pled guilty on          investigation was conducted by DOT/OIG with
  June 22 in U.S. District Court, Newark, New         the Defense Criminal Investigative Service, and
  Jersey, to conspiracy to defraud charter cus-       the FAA.
  tomers and brokers, and to impede and obstruct
  the FAA. In 2005, one of PJM’s flights crashed
  into a warehouse during an attempt to take off.
  Mr. Budhan admitted, in part, that he and his


18   •  Aviation and Special Programs
                                                           Audits and Investigations
                                                                   Aviation and Special Programs
Indiana Man Sentenced
to Over 4 Years Imprisonment                            ker subsequently admitted to making the false
and $906,000 in Restitution for the                     distress calls intending to crash the aircraft in
Willful Destruction of an Aircraft and                  the Gulf of Mexico.

False Distress Calls                                    This investigation was conducted jointly with
August 19, 2009                                         the U.S. Coast Guard Investigative Service, with
                                                        assistance from the FAA, the U.S. Marshal’s Ser-
Marcus Schrenker was sentenced on
                                                        vice, and a variety of local police departments.
August 19 in U.S. District Court, in, Pensacola,
Florida, to 51 months imprisonment, followed
by 3 years supervised release, and ordered to           New Jersey Attorney Pays $5,000
pay $34,649.07 restitution to the U.S. Coast            Civil Settlement for Improperly
Guard and $871,387.85 to Harley Davidson
Credit Corporation, the finance company for his         Soliciting Families within 45 Days
aircraft. On January 11, 2009, Mr. Schrenker,           After an Air Carrier Accident
while piloting his Piper aircraft to Destin, Florida,   August 28, 2009
made several false distress calls to the Atlanta
Air Route Traffic Control Center. In response to        On August 28, New Jersey attorney Richard J.
the calls, the U.S. Coast Guard, among others,          Weiner and the United States agreed to settle a
launched a search and rescue effort. It was later       civil action by the United States against Weiner
determined that Mr. Schrenker set the aircraft on       for improperly soliciting families of victims of
autopilot and parachuted out of it. Mr. Schren-         a fatal commercial air carrier accident that oc-
                                                                          curred in upstate New York in
                                                                          February 2009. The settlement
                                                                          came following a DOT/OIG
                                                                          investigation requested by the
                                                                          NTSB.

                                                                          The DOT OIG investigation
                                                                          revealed that Weiner, a partner
                                                                          in the New Jersey law firm of
                                                                          Weiner, Carroll and Strauss,
                                                                          in violation of Federal statute,
                                                                          sent letters soliciting legal busi-
                                                                          ness to the families of victims
                                                                          of the Colgan Air Flight 3407
                                                                          accident that occurred near
                                                                          Buffalo, New York, on Febru-
                                                                          ary 12, 2009. Pursuant to the


                                                                         Semiannual Report to Congress  •  19
                                                       Dutch Airline Executive Sentenced
                                                       to Eight Months Imprisonment and
  settlement agreement, which was negotiated
  by the United States Attorney’s Office for the       Fined $20,000 for Role in Price Fixing
  Western District of New York, the parties agreed     Scheme on Air Cargo Shipments
  that “Weiner engaged in conduct which violated       September 17, 2009
  49 U.S.C. § 1136(g)(2) prohibiting solicitations
  by attorneys within 45 days after an air carrier     Franciscus Johannes De Jong, aka Frank De
  accident[.]” The settlement was reached in lieu      Jong, the former vice president of cargo sales
  of a civil action being brought by the U.S. Attor-   in Europe for Martinair Holland N.V., was sen-
  ney in the District Court of the Western District    tenced on September 17 in U.S. District Court,
  of New York.                                         Washington, D.C., to 8 months imprisonment
                                                       and fined $20,000 for his involvement in a price
                                                       fixing scheme of air cargo shipments in violation
  Former New York Pilot Pleads Guilty to
                                                       of the Sherman Anti-Trust Act.
  Using a Fraudulent FAA Airworthiness
  Certificate                                          The investigation determined that De Jong and
  September 8, 2009                                    his co-conspirators engaged in a conspiracy to
                                                       fix the cargo rates charged to customers for in-
  Douglas Bradley, former pilot and ex-president       ternational air shipments to and from the United
  of the New York Finger Lakes Soaring Club, pled      States. Between April 2002 and February 14,
  guilty on September 8 in U.S. District Court,        2006, Mr. De Jong and his co-conspirators
  Rochester, New York, to a felony charge related      carried out the price fixing conspiracy by par-
  to his use and possession of a forged FAA Stan-      ticipating in meetings, conversations and com-
  dard Airworthiness Certificate (SAC) for a glider    munications to discuss the cargo rates that
  aircraft. In the summer of 2008, Mr. Bradley         would be charged on certain routes. Including
  installed a fraudulent SAC on a newly-acquired       this result, a total of 15 airlines and 4 airline
  glider aircraft that had not been inspected and      executives have been convicted in connection
  certified as airworthy by the FAA. The investi-      with this investigation and over $1.6 billion in
  gation, which was initiated as the result of an      criminal fines have been assessed.
  FAA referral, revealed that the glider was flown
  by multiple club members, including Mr. Brad-        This DOT/OIG investigation is coordinated by
  ley, at least 41 times during the 2008 Labor Day     the U.S. Department of Justice, Antitrust Divi-
  weekend. The investigation was conducted by          sion and is being worked jointly with the FBI and
  DOT/OIG with assistance from FAA.                    the U.S. Postal Service/OIG. n




20   •  Aviation and Special Programs
                                                        Audits and Investigations




                                       Highway and Transit Programs
IN FOCUS: HIGHWAY TRUST SOLVENCY


In May 2009, the Department notified key             taxes on motor fuels and the sale of trucks and
congressional staff that barring congressional       trailers to states to fund their surface transporta-
action to increase cash deposits into the High-      tion programs. The cash balance in the Highway
way Account of the Highway Trust Fund (HTF),         Account increased steadily through the late
the Department would be forced to reduce or          1990s, reaching a peak of $23 billion in fiscal
suspend reimbursement to States for eligible         year 2000. However, beginning in fiscal year
highway expenditures. Congress addressed this        2000—halfway through the period authorized
cash shortfall through a $7 billion cash infusion    by the Transportation Equity Act for the 21st
from the General Fund. This most recent cash         Century (TEA-21)—outlays began to outpace
crisis came on the heels of a similar cash crisis    receipts, which eroded the cash surplus. The
at the end of fiscal year 2008 that resulted in an   surplus was further eroded following the enact-
$8 billion General Fund transfer into the Highway    ment of the Safe, Accountable, Flexible, Efficient
Account.                                             Transportation Equity Act: A Legacy for Users
                                                     (SAFETEA-LU) in 2005, which increased con-
HTF, which consists of a Highway Account and         tract authority over TEA-21 without an associ-
a Mass Transit Account, channels federal excise      ated increase in funding. This coupled with the
                                                     unforeseen decline in vehicle miles travelled over
                                                                       Semiannual Report to Congress  •  21
                                                       sequently, the Department needs to consider
                                                       managing expectations regarding the degree of
  the past couple of years—due primarily to high       precision possible in its projections. Additionally,
  fuel prices and a lagging economy—caused the         the Department’s cash management responsi-
  Highway Account balance to decline more rap-         bility for the Highway Account is not always well
  idly than previously anticipated and led to the      served by the Department of the Treasury’s offi-
  on-going solvency concerns.                          cial revenue projections, which are updated just
                                                       twice a year. The Department’s cash balance
  OIG’s Review of HTF’s Solvency                       projections could be incrementally refined if the
                                                       official forecasts were adjusted throughout the
  In view of the most recent cash crisis in the        year based on actual year-to-date data.
  Highway Account and at the request of Sena-
  tor Judd Gregg, Ranking Member of the Sen-           The Department relies on cash balance fore-
  ate Budget Committee, the Office of Inspector        casts to trigger formal notification to Congress
  General (OIG) initiated a review of the solvency     and the States of a potential insolvency in the
  of the Highway Account. The objectives of this       Highway Account. While the Department greatly
  review were to evaluate (1) the basis for the        increased the amount of data publicly available
  Department’s projection of the magnitude and         regarding the balance of the Highway Account,
  timing of a Highway Account cash shortfall,          until recently it lacked a consistent and easily
  (2) how that projection would vary under differ-     understood message regarding the timing and
  ent assumptions, and (3) the triggers the Depart-    magnitude of a potential cash shortfall. Con-
  ment uses to decide that the risk of insolvency      sequently, the Department could improve the
  for the Highway Account requires action by the       effectiveness of current triggers by providing
  Administration and Congress.                         a simple, public interpretation of HTF’s current
                                                       and projected cash balance on a more regular
  Based on our review, we concluded that the           basis.
  Department used a reasonable methodology
  to project the magnitude and timing of a cash        While the $7 billion cash infusion temporar-
  shortfall. However, some of its assumptions          ily addressed the short-term solvency issues
  were outdated as the Department did not use          confronting the Highway Account, the inability
  actual year–to–date data to adjust total revenue     of the current funding mechanisms to support
  or outlay estimates, which we estimated could        existing spending levels suggests that barring
  yield a margin of error in those projections of up   a congressional fix that increases cash receipts
  to $1 billion.                                       or reduces outlays to states, the Highway Ac-
                                                       count will continue to face cash shortfalls in the
  The Department’s cash balance forecasts are          future.
  sensitive to two key macro-economic factors—
  real gross domestic product (GDP) and oil            On-going Challenges Confronting HTF
  prices—both of which vary largely due to fac-
  tors outside the Department’s control, which         Because the current highway authorization—
  make it difficult to estimate precisely either the   SAFETEA-LU—expired at the end of fiscal year
  magnitude or timing of the cash shortfall. Con-      2009 and was extended rather than reautho-

22   •  Highway and Transit Programs
                                                           Audits and Investigations
                                                                   Highway and Transit Programs
rized, measures to address future
shortfalls in HTF have yet to be addressed.
HTF’s Highway Account will face a cash short-           of SAFETEA-LU, the current funding mechanism
fall during the fiscal year until such measures         was barely able to raise $30 billion to $35 billion
are taken. To avoid disruptions in payments to          annually for the Highway Account compared to
states, the Department must work with Congress          annual outlays of $33 billion to $40 billion. Since
to manage HTF’s on-going solvency concerns              the Administration has opposed any increase in
and replenish HTF funds.                                the gas tax given the economic environment, the
                                                        Department will have to work closely with Con-
Adding to the challenge confronting the De-             gress, States, and other stakeholders to evaluate
partment is the acknowledgment by both the              all options—including potential changes to the
Administration and Congress for the need to             current funding mechanism as well as the use
increase federal funding in support of surface          of alternative funding mechanisms—to address
transportation. The House Transportation and            the resulting funding gap. Following this, the
Infrastructure Committee recently proposed              Department will have to work with Congress to
legislation that would channel $500 billion—            enact a comprehensive funding framework for
$450 billion for HTF and $50 billion for high           the next surface transportation reauthorization
speed rail—in Federal funding to support State          that sufficiently increases HTF’s cash receipts to
surface transportation programs over six years,         match its outlays. n
or roughly $83 billion per year. This proposed
funding level is significantly higher than the
spending levels laid out in SAFETEA-LU, which
authorized outlays of roughly $286 billion in
Federal funding over a 5-year period, or roughly
$57 billion per year.

While the Department generally agrees with Con-
gress about the need for an increase in Federal
spending in support of State highway programs,
it has yet to propose spending levels for the next
highway reauthorization. Consequently, the De-
partment must work closely with Congress and
other stakeholder groups to develop a consensus
on what an appropriate level of Federal funding
for state surface transportation programs.

Additionally, the current funding mechanism is
unable to generate adequate cash receipts to
meet current outlay levels, let alone the higher lev-
els implied by an increase in the Federal funding
for surface transportation. Since the beginning

                                                                         Semiannual Report to Congress  •  23
                                                     American Recovery and Reinvestment
                                                     Act (ARRA) - DOT’s Implementation
  Audits                                             Challenges and the OIG’s Strategy for
  American Recovery and Reinvestment                 Continued Oversight of Funds and
  Act (ARRA) - DOT’s Implementation                  Programs
  Challenges and the OIG’s Strategy for              April 30, 2009
  Continued Oversight of Funds and                   The Inspector General testified before the Senate
  Programs                                           Committee on Appropriations, Subcommittee
                                                     on Transportation, Housing and Urban Develop-
  April 29, 2009
                                                     ment, and Related Agencies, regarding DOT’s
  The Inspector General testified before the House   oversight of ARRA and OIG’s related audit and
  Committee on Transportation and Infrastructure     investigative strategy.
  regarding DOT’s oversight of ARRA and OIG’s
  related audit and investigative strategy. The      Follow–Up Audit on the
  Inspector General highlighted key oversight
  challenges facing DOT and discussed our ongo-
                                                     Implementation of NAFTA’s Cross–
  ing work examining vulnerabilities in program      Border Trucking Provisions
  management and planning that could impede          August 17, 2009
  DOT’s ability to provide effective oversight of
  ARRA–funded projects and meet new statutory        We issued our report on the Federal Motor
  and Office of Management and Budget require-       Carrier Safety Administration’s (FMCSA) imple-
  ments.                                             mentation of the North American Free Trade
                                                     Agreement’s (NAFTA) cross–border trucking
                                                     provisions. This report is required under Section
                                                     350(c) of the FY 2002 Department of Transporta-
                                                     tion Appropriations Act. We found that FMCSA
                                                     continually took actions to address our August
                                                     2007 recommendations for improving the border
                                                     safety program, but needed to enhance the con-
                                                     sistency of information reported to the Mexican
                                                     Conviction Database and its capacity to perform
                                                     safe and efficient bus inspections at border
                                                     crossings. We provided FMCSA with specific
                                                     recommendations in the areas of improving the
                                                     monitoring of Mexican Federal Commercial
                                                     Drivers License holders operating in the United
                                                     States and improving the capacity to perform bus
                                                     inspections at the United States-Mexico border
                                                     bus crossings. FMCSA concurred with all five


24   •  Highway and Transit Programs
                                                     Audits and Investigations
                                                             Highway and Transit Programs
of the report’s recommendations
for improvement and provided appropriate
planned actions and target completion dates. n    terms of the funding, sought reimbursement
                                                  for fictitious, inflated, or ineligible expenses,
Investigations                                    and falsely claimed that certain milestones had
                                                  been reached in order to justify the payment of
                                                  claimed expenses. Through proceeds from the
                                                  invoices, Armitage, Willson, and EVW received
                                                  wire transfers of approximately $703,000 that
                                                  they used for their own benefit as well as for
                                                  the benefit of a Canadian company founded by
                                                  Armitage and Willson. Additionally, it is alleged
                                                  that Amitage and Willson repeatedly lied to
                                                  and attempted to obstruct DOT/OIG auditors
                                                  during the course of a DOT/OIG audit. The in-
                                                  vestigation was conducted jointly with Internal
                                                  Revenue Service (IRS)-Criminal Investigation
Massachusetts Company Indicted for                Division and assisted by the Defense Contract
                                                  Audit Agency.
Fraud on FTA Project
April 2, 2009
                                                  Major Big Dig Contractor Pleads
On April 2, Michael Armitage, former Chief
                                                  Guilty to Making False Statements
Executive Officer of EV Worldwide LLC
(EVW); Christopher Willson, former senior         May 8, 2009
vice-president of EVW; and the company
                                                  Modern Continental Construction Company
itself were indicted by a Federal grand jury in
                                                  (MCC), Cambridge, Massachusetts, the single
the District of Massachusetts on a variety of
                                                  largest CA/T contractor with over $2 billion in
charges, including falsifying information about
                                                  contracts, pled guilty on May 8 in U.S. District
the company’s matching share of project costs
                                                  Court, Boston, Massachusetts to 39 counts of
and the expenses submitted in connection with
                                                  making false statements in connection with a
a $4.2 million Federal Transit Administration
                                                  federal highway project, i.e. Boston’s Central
(FTA) funded grant given to the Pioneer Valley
                                                  Artery/Tunnel Project (CA/T). The false state-
Transit Authority (PVTA) for the development
                                                  ments were related to the September 2004
of a nickel-hydride bus battery. The inves-
                                                  mainline tunnel wall panel blowout and fraud
tigation disclosed that between November
                                                  on time and materials (T&M) change orders.
2004 and July 2006, Armitage, Willson, and
EVW conspired to defraud FTA by submit-
                                                  The guilty plea addresses the false statements
ting false, fraudulent, and fictitious invoices
                                                  made by MCC on the Certificate of Substantial
to FTA through PVTA. These invoices falsely
                                                  Completion and Beneficial Occupancy (the
claimed that the FTA share of project costs did
                                                  Certificate) submitted in relation to the portion
not exceed the 50% level required under the


                                                                  Semiannual Report to Congress  •  25
                                                      ernment for inflated labor hours, travel hours
                                                      not compensable under the contracts, for
  of tunnel which had the blowout. The investi-       inspectors’ mileage in excess of the amounts
  gation showed that at the time of its construc-     allowed under the contracts, for unallowable
  tion, MCC was aware of major defects in the         subsistence expenses and for lodging and
  panel and noncompliance with construction           subsistence expenses that lacked support. In
  specifications while providing the Certificate to   addition to the settlement agreement with the
  the CA/T. On September 15, 2004, wall panel         Department of Justice, Pennoni entered into
  EO-45 in the mainline I-93 tunnel ruptured          an administrative settlement and compliance
  and the subsequent flooding of the roadway          agreement with the FHWA. As part of the
  caused major traffic problems and resulted in a     administrative settlement agreement, Pennoni
  comprehensive structural review of wall panels      will undertake independent auditing and revi-
  in the tunnels. In addition, MCC also admit-        sions of its corporate compliance program as
  ted submitting numerous false statements            required by the FHWA. In exchange, FHWA
  wherein apprentice level workers were billed as     has agreed not to recommend suspension or
  journeymen on T&M change order work on 5            debarment action. This DOT/OIG investigation
  CA/T contracts. Sentencing is pending. This         was worked jointly with the Delaware Depart-
  investigation was worked jointly with Depart-       ment of Transportation and the U.S. Attorney’s
  ment of Labor/OIG and the FBI and prosecuted        Office, District of Delaware.
  by the U.S. Attorney’s Office for the District of
  Massachusetts.


  Pennsylvania Firm Agrees to
  $330,000 Settlement to Resolve
  False Claims Involving Delaware DOT
  Contract
  May 13, 2009
  Pennoni Associates, Inc., a consulting engineer-
  ing firm located in Philadelphia, Pennsylvania,
  entered into a $330,000 settlement agreement
  on May 13 with the U.S. Department of Justice
  to resolve civil false claims involving approxi-
  mately $975,760 in Federally-funded Delaware
  Department of Transportation (DELDOT)
  contracts for bridge and overhead structures
  materials testing and inspection services.

  Between January 1, 1998 and
  December 31, 2001, Pennoni billed the Gov-


26   •  Highway and Transit Programs
                                                       Audits and Investigations
                                                               Highway and Transit Programs
Former Houston Fuel
Distributor Sentenced to 12 Years                   taxes. This investigation was conducted jointly
Imprisonment and $1 Million in                      with IRS-Criminal Investigation Division (CID),
Restitution for Motor Fuel Tax Evasion              Environmental Protection Agency-CID, Immi-
                                                    gration Customs Enforcement, and the Texas
Scheme                                              State Comptroller’s Office.
June 23, 2009

Sidney Baldon II, owner/operator of Mid–Coast       California Man Sentenced to Over
International (Mid–Coast), a kerosene distribu-     5 Years Imprisonment, $2.9 Million
tion company, was sentenced on June 23, in
Texas State Court to 12 years imprisonment
                                                    in Restitution, and Forfeiture of
and ordered to pay $1 million in restitution to     $1.4 Million for Defrauding Trucking
the state of Texas for his role in a scheme to      Companies
impede the State’s collection of millions of
                                                    June 29, 2009
dollars in motor fuel taxes. Baldon pled guilty
to evading motor fuel taxes, blending motor         Nicholas Lakes, aka Dimitry Livshits, a Rus-
fuel, and engaging in a motor fuel tax evasion      sian citizen, was sentenced on June 29 to over
scheme.                                             5 years in prison for computer fraud, mail fraud,
                                                    and aiding and abetting following a guilty plea to
Between March 2002 and November 2003,               a superseding information filed in U.S. District
Baldon acting through Mid–Coast, purchased          Court Los Angeles, California. Mr. Lakes also
kerosene under fraudulent pretenses. Baldon         was ordered to pay restitution to the victims in
and his associates presented a letter to the re-    the amount of $2,897,629 and will forfeit a T.D.
finery that indicated that the fuel was purchased   Ameritrade account containing $1,455,697.
for export to Mexico, which allowed Mid–Coast       Mr. Lakes and his business partner, Viacheslav
to acquire the fuel untaxed. The untaxed fuel       Berkovich, fraudulently established a trucking
was then mixed with other materials to pro-         company and a broker company by illegally
duce over 22 million gallons of blended fuel.       gaining access to the Safety and Fitness Elec-
The untaxed, blended fuel was transported to        tronic Records System, which is maintained by
retail filling stations in the Houston area and     the FMCSA. Mr. Lakes and Mr. Berkovich ac-
sold as taxable motor fuel. The scheme also         cessed various motor carrier broker websites
resulted in impeding the collection of Federal      to “double broker” trucking jobs to legitimate
fuel excise taxes, which negatively impacted        trucking companies that were never paid for
the Highway Trust Fund. Baldon was also             their actual deliveries. Mr. Lakes and Mr. Berk-
sentenced in Federal court in May 2009 to 5         ovich then deceived legitimate brokers into
years’ imprisonment and $1.6 million in restitu-    paying them by attesting that their fraudulent
tion in connection with charges associated with     companies actually transported loads. On
impeding the Internal Revenue Service (IRS)         August 10, 2009, Mr. Berkovich pled guilty to
in the proper collection of Federal fuel excise     charges related to the double broker scheme


                                                                     Semiannual Report to Congress  •  27
  and was sentenced to 4.5 years in prison and
  ordered to pay $2,773,074 in restitution.


  Chicago Engineering Contractor
  Sentenced to Over 3 Years
  Imprisonment and $10.5 Million
  in Restitution for Overbilling DOT–
  Funded Contracts
                                                        Utah Corporation Pleads Guilty to
  June 30, 2009
                                                        Making False Statements Related to
  Manu Shah, owner of Shah Engineering, Inc.,           the Installation of Non–Conforming
  (SEI), was sentenced on June 30 in U.S. Dis-
  trict Court, Springfield, Illinois, to over 3 years   Crash Cushions
  imprisonment and ordered to pay $10 million           July 7, 2009
  in restitution. Shah Engineering, Inc., was also
  sentenced to 2 years of probation and fined           Hikiau, Inc., (Hikiau), a Utah corporation spe-
  $500,000. These sentences follow Mr. Shah’s           cializing in the installation of highway safety
  guilty plea to charges he defrauded the Illinois      devices, pled guilty on July 7 in U.S. District
  Department of Transportation (IDOT) and other         Court, Salt Lake City, Utah to falsifying certifi-
  State agencies and Municipal agencies by over         cates of compliance related to the installation
  stating the number of hours actually worked by        of highway crash cushions on a Federally
  his employees on certain projects and by in-          funded highway project. Hikiau was placed on
  flating his overhead rates. IDOT conducted an         36 months of probation, ordered to pay a fine of
  audit of SEI and determined that SEI overstated       $10,000, and $31,485.45 in restitution. During
  their overhead expenses for IDOT contracts,           a Utah Department of Transportation (UDOT)
  for City of Chicago contracts, and for Illinois       debarment hearing, Hikiau, Inc. admitted to
  State Toll Highway Authority contracts. The           submitting false certificates of compliance for
  investigation and further audit revealed overbill-    highway crash cushions to UDOT, even though
  ing of approximately $2.2 million in FTA funds,       Hikiau knew that the installation of these de-
  $2.6 million in FHWA funds, and approximately         vices did not meet the UDOT standards and
  $448,000 in FAA funding. Mr. Shah was the             manufacturer’s specifications and require-
  primary contractor or subcontractor on various        ments. Representatives for Hikiau testified
  projects for engineering and architectural ser-       that Hikiau submitted the false certificates of
  vices for IDOT and other state governmental           compliance in order to get paid, knowing the
  agencies from 1997 to 2005. FTA debarred              crash cushions did not meet UDOT standards.
  SEI for a 3 year period. This case was worked         This investigation was conducted with the
  jointly with the FBI with assistance from Illinois    assistance of FHWA and Utah Department of
  Department of Transportation.                         Transportation.


28   •  Highway and Transit Programs
                                                       Audits and Investigations
                                                                Highway and Transit Programs
New York Construction
Company President and Associate                      Motor Fuel Tax Fugitive Sentenced to
Sentenced for Bribing Union Officials                Over 3 Years Imprisonment and
and Utility Company Representatives                  $1 Million Restitution
on Roadway Reconstruction Projects                   July 27, 2009
July 14, 2009
                                                     Aron Misulovin, the former operator of Kings
Andrew Catapano, the president of AFC                Motor Oils (Kings), was sentenced on July 31
Enterprises, Inc., and John Mikuszewski, a           in U.S. District Court, Camden, New Jersey, to
consultant to Rosewood Contracting Corpora-          over 3 years in prison and $1 million restitu-
tion, were sentenced on July 14 in U.S. District     tion for crimes related to the evasion of motor
Court, Brooklyn, New York, for their roles in an     fuel excise taxes. Mr. Misulovin was indicted
elaborate bribery scheme. Mr. Catapano was           on motor fuel tax evasion charges in 1995, but
sentenced to 10 months in jail, 2 years of super-    fled prior to prosecution. In February 2009,
vised release, 200 hours of community service,       after being a fugitive for nearly 13 years, he
ordered to pay a $25,000 fine, and $60,000 in        pled guilty to numerous criminal charges.
restitution to the IRS. Mr. Mikuszewski was          The 1995 indictment charged Mr. Misulovin
sentenced to serve 5 months in jail, 5 months        and 24 other defendants with approximately
of home confinement, 2 years of supervised           $138 million in evaded Federal and New Jersey
release, ordered to pay a $25,000 fine, and          state motor fuel excise taxes.
$139,880 in restitution for back taxes to the
IRS. Prior to sentencing, the defendants paid        Federal motor fuel excise taxes provide revenue
a forfeiture of $1.2 million to the United States.   for the Department of Transportation’s Highway
Mr. Catapano and Mr. Mikuszewski both ad-            Trust Fund. Mr. Misulovin operated Kings, a
mitted that from 1998 to 2001 they conspired         wholesale fuel distributorship. According to
to bribe union officials and utility company         the indictment, Kings purchased hundreds of
representatives on numerous roadway recon-           millions of gallons of tax–free home heating
struction projects awarded by DOT grantees           oil, but through an elaborate scheme the fuel
throughout the New York City area. FHWA              was re–sold by a wholesaler as diesel fuel for
suspended Mr. Catapano and Mr. Mikuszewski           highway use, with Federal and state taxes
and is considering debarment action as a result      being charged and collected from unknowing
of their conviction. This DOT/OIG investigation      customers. Instead of remitting payment to the
was worked jointly with the Internal Revenue         IRS and the state, the taxes were distributed
Service-Criminal, Labor/ OIG and the New York        among Mr. Misulovin and other conspirators.
City Department of Investigation.                    Mr. Misulovin and the other tax evaders insu-
                                                     lated themselves by creating “shell companies”
                                                     and made it appear as though these sham enti-
                                                     ties bought and sold the fuel. In reality, these
                                                     companies never took title or possession of the
                                                     fuel and Mr. Misulovin created false invoices

                                                                     Semiannual Report to Congress  •  29
                                                     Pennsylvania Motor Carrier Broker
                                                     and Sons Indicted in $1 Million Fraud
  and other documents to disguise the transac-
  tions between wholesale fuel distributorship       Scheme
  and fuel wholesaler. This investigation was        August 25, 2009
  worked jointly with IRS-CID, the FBI, and the
  New Jersey Division of Taxation.                   The U.S. District Court of Harrisburg, Pennsyl-
                                                     vania, unsealed a 40 count indictment on Au-
                                                     gust 25 charging Rubik Avetyan, and his 2 sons,
  Six Former Managers of Big Dig                     Allen and Alfred, with multiple counts of mail
  Supplier Convicted for Delivering                  fraud, wire fraud, aggravated identity theft, and
                                                     conspiracy. Mr. Avetyan and his sons allegedly
  Non–Specification Concrete                         created 2 shell companies and provided false
  August 3, 2009                                     identity information to the FMSCA. The indict-
                                                     oner alleges that Avetyans used the shell com-
  On August 3, Robert Prosperi, Gregory A.
                                                     panies to facilitate a double–brokerage scheme
  Stevenson, John J. Farrar, and Marc Blais were
                                                     and transport stolen merchandise. They alleg-
  convicted of conspiracy and fraud charges
                                                     edly received approximately $1,060,000 in illicit
  following a 3 week trial in U.S. District Court,
                                                     payments and goods. The indictment alleged
  Boston, Massachusetts and
                                                                          that the Avetyans utilized
  in July, Gerard M. McNally
                                                                          various motor carrier broker
  and Keith Thomas each
                                                                          websites to procure loads for
  pled guilty to a variety of
                                                                          transport with unsuspecting
  charges to include fraud on
                                                                          businesses. The Avetyans
  a Federal highway project.
                                                                          entered into agreements
  All 6 individuals, who were
                                                                          with legitimate brokers which
  in managerial positions in
                                                                          falsely indicated that their
  the Aggregate Industries (AI)
                                                                          shell companies would haul
  concrete division, were con-
                                                                          and broker the load. They
  victed of fraud and related
                                                                          then allegedly brokered the
  offenses for engaging in a
                                                                          load to a legitimate carrier
  scheme to provide approxi-
                                                                          and agreed to compensate
  mately 5,000 truckloads of
                                                     the legitimate carrier at a higher rate. The
  concrete that did not meet specifications to Big
                                                     Avetyans allegedly obtained payments from the
  Dig contracts between 1996 and 2005. The
                                                     brokerage firm that listed the load, but failed to
  investigation was conducted by DOT/OIG, the
                                                     pay the carrier that actually delivered the load.
  Massachusetts State Police, and the FBI and
                                                     Note: As in any criminal case, a person is pre-
  prosecuted by the U.S. Attorney’s Office for
                                                     sumed innocent unless and until proven guilty.
  the District of Massachusetts with assistance
                                                     The charges filed merely contain allegations of
  from the Massachusetts Office of the Attorney
                                                     criminal conduct.
  General.




30   •  Highway and Transit Programs
                                                        Audits and Investigations
                                                                Highway and Transit Programs
Big Dig Epoxy Supplier
Pleads to Making False                                New Jersey Man Sentenced for
Statements in Connection with Ceiling                 Impersonating a USDOT Federal
Collapse and is Fined $100,000                        Motor Carrier Inspector
September 18, 2009                                    September 21, 2009
Powers Fasteners, Inc., Brewster, New York,           Hugo Daniel Solana, was sentenced on Sep-
was charged on September 18 with making a             tember 21 in U.S. District Court, Newark, New
false statement in connection with the construc-      Jersey, to 1 year probation and a $500 fine for
tion of the Central Artery’s (CA/T) I-90 connec-      impersonating a Federal Motor Carrier Safety
tor tunnel. Powers supplied the epoxy product         Inspector. DOT/OIG’s investigation determined
used by the general contractor to secure the          that Mr. Solana owned a motor carrier consult-
suspended ceiling to the roof tunnel. Powers          ing firm known as Redsol Safety Corporation
sold two versions of the epoxy: Fast Set and          (Redsol) in Union, New Jersey. Mr. Solana
Standard Set. Powers was aware that the Fast          appeared at several trucking firms in the New-
Set version of the epoxy was not suitable for         ark, New Jersey, area where he displayed a
sustained loads, but failed to disclose this in its   gold badge, identified himself as a U.S. DOT
design manual that was ultimately submitted           Inspector, and produced a business card bear-
by the general contractor and approved by the         ing the DOT seal. He then threatened to arrest
CA/T. Once approved, the general contractor           individuals for perceived motor carrier viola-
used the Fast Set epoxy to secure the anchor          tions. Solana later returned and advised the
bolts to the ceiling panels.                          victim companies that they could hire Redsol
                                                      to resolve their motor carrier issues. During
On July 10, 2006, several of the ceiling panels       Mr. Solana’s DOT/OIG interview he identified
collapsed on a vehicle killing a motorist. The        himself as a USDOT Inspector and produced a
NTSB ultimately determined that the cause of          gold badge. Mr. Solana was arrested by DOT/
the collapse was the failure of the Fast Set ep-      OIG special agents and the fraudulent badge
oxy. Powers entered into a plea agreement with        was confiscated. n
the U.S. Attorney’s Office, agreeing to plead
guilty and be placed on probation. Powers
will also pay a fine of $100,000. The criminal
fine was agreed upon taking into consideration
Powers December 2008 deferred prosecution
agreement, $16 million payment to the Com-
monwealth of Massachusetts, and its payment
of a $6 million civil settlement to the estate of
the victim. The case was investigated jointly
with the FBI and the U.S. Attorney’s Office for
the District of Massachusetts.



                                                                      Semiannual Report to Congress  •  31
                                                        Audits and Investigations




           Rail & Maritime Programs and Economic Analysis
Audits                                               casted year–end operating loss of $25.8 million.
                                                     Amtrak has not yet identified the measures it will
Second Quarterly Report on Amtrak’s                  take to close this funding gap.

FY 2009 Operational Reforms Savings                  Amtrak had shifted $24 million in costs from
and Financial Performance                            general operating to capital and expected to
June 03, 2009                                        end the year with a cash balance of $182 million,
                                                     well above the minimum year–end level that OIG
We issued our quarterly report to the House and      believes is necessary. These funds could be
Senate Appropriations Committees on Amtrak’s         used to close the funding gap if Amtrak can not
savings from operational reforms and year–to–        implement sufficient operating efficiencies.
date financial performance, as mandated by the
Fiscal Year 2008 Consolidated Appropriations
Act. Amtrak’s operating loss through March           Letter to Ranking Member Gregg
2009 was $259.9 million, 6.9 percent less than       Regarding DOT’s Projections of
budgeted as declining passenger revenues were        Highway Trust Fund Solvency
largely offset by declining fuel and employee
benefit costs. Amtrak’s financial performance
                                                     June 24, 2009
was expected to continue to erode through the        We issued the results of our review related to
remainder of the fiscal year, resulting in a fore-   the solvency of the Highway Trust Fund, con-
                                                                      Semiannual Report to Congress  •  33
 ducted at the request of Senator
 Judd Gregg, Ranking Member of
 the Senate Budget Committee.
 As requested, our objectives were
 to evaluate (1) the basis for the
 Department’s projection of the
 magnitude and timing of a Highway
 Account cash shortfall, (2) how
 that projection would vary under
 different assumptions, and (3) the
 triggers the Department uses to
 decide that the risk of insolvency
 for the highway account requires                        Third Quarterly Report on Amtrak’s
 action by the Administration and Congress. We
 found that the Department used a reasonable
                                                         FY 2009 Operational Reforms
 methodology to project the magnitude and tim-           Savings and Financial Performance
 ing of a cash shortfall. However, some of its as-       July 31, 2009
 sumptions were outdated, as the Department did
 not use actual year–to–date data to adjust total        We issued our quarterly report to the House and
 revenue or outlay estimates. This could yield           Senate Appropriations Committees on Amtrak’s
 a margin of error in those projections of up to         savings from operational reforms and year–to–
 $1 billion in magnitude and 2 weeks in timing. We       date financial performance, as mandated by the
 also found that the Department’s cash balance           Fiscal Year 2009 Consolidated Appropriations
 forecasts varied largely due to factors outside the     Act. Amtrak’s operating loss through June 2009
 Department’s control. While the accuracy of the         was $367.2 million, 0.6 percent more than bud-
 Department’s projections could be incrementally         geted, as declining passenger revenues were
 improved, the range of defensible values for the        largely offset by declining fuel and employee
 factors influencing those projections makes it dif-     benefit costs. Amtrak’s financial performance
 ficult to estimate precisely either the magnitude       was expected to continue to erode through
 or timing of the cash shortfall. Finally, we found      the remainder of the fiscal year, resulting in a
 that the Department relied on cash balance fore-        forecasted year–end operating loss of $16.0
 casts to trigger formal notification to Congress        million more than budgeted. Amtrak has not
 and the states of a potential insolvency in the         identified the measures it would take to close
 highway account. While the Department greatly           this funding gap. Amtrak expected to end the
 increased the amount of data publicly available         year with a cash balance of $192.8 million, well
 regarding the balance of the highway account it         above the minimum year–end level the Office of
 had lacked a consistent and easily understood           Inspector General believes is necessary. These
 message regarding the timing and magnitude of           funds could be used to close the funding gap if
 a cash shortfall.                                       Amtrak can not implement sufficient operating
                                                         efficiencies. n


34   •  Rail & Maritime Programs and Economic Analysis
                                                          Audits and Investigations
                                                     Rail & Maritime Programs and Economic Analysis

Investigations

                                                       facilitating a kickback scheme wherein the la-
New York Construction Company                          borers were required to kickback some of their
Accountant Sentenced Pay $507,190                      wages to the owners of Takbeer. The amount
in Restitution for Prevailing Wage                     of fraud in this scheme was calculated at
                                                       $1.8 million. This scheme occurred on
Kickback Fraud Scheme                                  several construction projects, including a
September 25, 2009                                     Federally funded Metro-North Commuter
                                                       Railroad train station project in Larchmont,
Noman Khalid-Hussein, accountant for Tak-
                                                       New York. Takbeer’s portion of the Larchmont
beer Enterprises, Incorporated, (Takbeer), was
                                                       train station project was an $800,000 subcon-
sentenced on September 25 in U.S. District
                                                       tract by St. Francis Construction Company.
Court, Brooklyn, New York, to 3 years proba-
                                                       To facilitate the overall scheme, several false
tion and $507,190 in restitution. Mr. Khalid-
                                                       documents, including false certified payrolls,
Hussein is jointly and severally liable to pay the
                                                       were submitted to DOT grantee agencies. The
restitution with other defendants in this matter.
                                                       investigation was conducted by DOT/OIG jointly
Mr. Khalid-Hussein previously pled guilty to
                                                       with the OIGs of the Department of Labor and
making false statements, where he admitted
                                                       the Port Authority of New York & New Jersey
that between 2004 and 2005, he participated
                                                       (NY-&-NJ), and the New York City Department
in a scheme to defraud laborers by not pay-
                                                       of Investigation. n
ing them the proper prevailing wages and




                                                                       Semiannual Report to Congress  •  35
                                                      Audits and Investigations




                       Financial and Information Technology

Audits                                             these areas, specifically to determine if (1) the
                                                   earned value management measures included in
Quality Control Review of the                      OMB Exhibit 300 submissions properly reflected
                                                   project performance, and (2) security costs in-
Department’s Implementation of                     cluded in the submissions were supported.
Earned Value Management and
Security Cost Reporting                            KPMG concluded that the Department applied
                                                   EVM controls inconsistently throughout the Op-
April 24, 2009
                                                   erating Administrations. The Department lacked
We issued our report on the audit of the Depart-   a standard EVM approach for implementation
ment of Transportation’s (DOT’s) implementation    and was not consistent with requirements speci-
of earned value management (EVM), and the          fied by OMB; consequently, the EVM–related
supportability of estimated security costs for     processes used to collect and report the EVM
major information technology (IT) investments.     measures included in Exhibit 300 submissions
An independent firm–KPMG, LLP, of Washington,      could not be relied upon to properly reflect
D.C.– under contract to the OIG assessed the       project performance. Additionally, KPMG found
effectiveness of DOT’s program and practices in    the Department had not established a standard


                                                                    Semiannual Report to Congress  •  37
                                                       Review of Web Applications Security
                                                       and Intrusion Detection in Air Traffic
                                                       Control Systems
                                                       May 04, 2009

                                                       We issued our report on Federal Aviation Ad-
                                                       ministration (FAA) Web applications security
                                                       and intrusion detection in air traffic control (ATC)
                                                       systems, requested by the Ranking Minority
                                                       Members of the House Transportation and Infra-
                                                       structure Committee and its Aviation Subcom-
                                                       mittee. The objectives of this performance audit
                                                       were to determine whether (1) Web applications
                                                       used in supporting ATC operations were prop-
                                                       erly secured to prevent unauthorized access to
                                                       ATC systems, and (2) FAA’s network intrusion–
                                                       detection capability was effective in monitoring
                                                       ATC cyber–security incidents. We found that
                                                       Web applications used in supporting ATC sys-
                                                       tems operations were not properly secured to
                                                       prevent attacks or unauthorized access. During
  method to accurately and consistently estimate       the audit, our staff gained unauthorized ac-
  the costs of implementing IT security. As a          cess to information stored on Web application
  result, the security cost estimates for Exhibit      computers and an ATC system, and confirmed
  300 submissions cannot be fully supported. We        system vulnerability to malicious code attacks.
  made the following recommendations to ad-            In addition, FAA had not established adequate
  dress these weaknesses: (1) establish a target       intrusion–detection capability to monitor and
  date to complete and distribute the DOT EVM          detect potential cyber security incidents at ATC
  implementation guidance to Operating Adminis-        facilities. The intrusion–detection system has
  trations, (2) require Operating Administrations to   been deployed to only 11 (out of hundreds of)
  review all major IT investments in the develop-      ATC facilities. Also, cyber incidents detected
  ment phase for compliance with key OMB re-           were not remediated in a timely manner. We
  quirements for EVM implementation and report         made a series of recommendations to help
  results to the Chief Information Officer’s (CIO’s)   enhance security over Web applications used in
  office, and (3) establish security cost estimation   supporting ATC operations and improve the ef-
  standards consistent with the National Institute     fectiveness of FAA’s cyber-incident-monitoring
  of Standards and Technology. The DOT CIO             and -response capabilities. FAA concurred with
  concurred with our findings and recommenda-          all of our recommendations and recognized that
  tions, and has provided plans to take specific       constant vigilance and effective action are the
  actions to implement them.                           keys to addressing cyber security in its ATC
                                                       systems.


38   •  Financial and Information Technology
                                                       Audits and Investigations
                                                      Financial and Information Technology
Report on the Audit of the
Data Integrity of the Commercial                    comprehensive security policies and proce-
Driver’s License Information System                 dures to better protect DMV systems. Third,
July 30, 2009                                       enhanced contingency planning and testing of
                                                    both CDLIS–Access and state DMV systems
We issued our report on the audit of the Data In-   has not fully occurred.
tegrity of the Commercial Driver’s License Infor-
mation System (CDLIS), as required by the Safe,     We made specific recommendations to address
Accountable, Flexible, Efficient Transportation     weaknesses in the following areas: security poli-
Equity Act: A Legacy for Users (SAFETEA−LU).        cies and procedures and contingency planning
SAFETEA−LU required that we perform a base-         and testing. The Acting Deputy Administrator,
line audit that included an assessment of the       FMCSA concurred with our findings and recom-
validity of the data in CDLIS and an analysis of    mendations, and has provided plans to take
the revenues derived from the use of CDLIS. This    specific actions to implement them. n
audit addressed the validity of CDLIS data and
security issues. We assessed (1) whether con-
victions received from the courts were recorded
in a timely manner, (2) whether CDLIS and state
department of motor vehicles (DMV) systems
were adequately secured, and (3) the adequacy
of contingency plans to ensure
continued CDLIS service to
DMVs following a disaster or
other emergency.

FMCSA has taken measures to
strengthen the CDL program,
but additional action is neces-
sary to increase the safety of
the Nation’s highways. First,
DMVs are still experiencing
delays in posting convictions to
their driver history records for
CDLIS users’ access. Second,
deficiencies in security controls
persist. Specifically, system
certification and accredita-
tion reviews have not been
completed, and states lag in
developing and implementing


                                                                     Semiannual Report to Congress  •  39
                                                       Audits and Investigations




                                                   Department-Wide Issues

Investigations                                      These sentences resulted from the defendants’
                                                    roles in the May 2009 theft of a DOT laptop
Virginia Resident Sentenced to 4 Years              computer and over $100,000 in transit benefit
                                                    checks. The DOT/OIG investigation determined
Imprisonment for the Theft of a DOT                 that the defendants and a fourth individual, who
Laptop Computer and over $100,000                   was not charged, checked into a Doubletree Hotel
in Transit Benefit Checks                           in Norfolk, Virginia, where a DOT contractor was
                                                    staying. When the DOT contractor checked in,
July 27, 2009                                       the hotel desk clerk failed to save the transaction
Vincent Land was sentenced on grand larceny         in the hotel computer system; therefore; the hotel
charges on July 27 in Virginia State Court, Nor-    computer system indicated that the contractor’s
folk, Virginia, to 4 years imprisonment, 3 years    room was available and it was assigned as if it
of which were suspended. On August 10, 2009,        were a vacant room. Upon entering the room, the
co–conspirators Jacques Cowell and Marquis          defendants took the government–issued laptop
Vinson pled guilty to the aforementioned charge     computer and roughly $103,800 in transit benefit
and each received a 2–year suspended sentence.      checks. The majority of the stolen transit benefit
                                                    checks were recovered. n



                                                                     Semiannual Report to Congress  •  41
                                                         Other Accomplishments




                                                    Other Accomplishments
This section highlights other accomplishments and contributions by OIG staff that extend beyond
the legal reporting requirements of the Inspector General Act. These accomplishments are part of
our statutory responsibilities to review existing and proposed legislation and regulations; respond to
congressional and departmental requests for information; and review policies for ways to promote
effectiveness and efficiency and detect and prevent fraud, waste, and abuse.



Consumer Assistance To Recycle and 	                 tion schedule, internal control vulnerabilities in
                                                     the oversight of CARS transactions, availability of
Save Program (CARS)
                                                     qualified staff and resources, and management
July 17, 2009, July 24, 2009, and                    of supporting contracts. We also provided com-
August 13, 2009                                      ments on draft versions of the CARS final rule.
                                                     OIG provided technical comments and input on
We presented briefings to National Highway Traf-
                                                     clarifying hearing procedures and requirements,
fic and Safety Administration management on
                                                     ensuring accurate disposal facility and dealer
non-audit research we conducted regarding risks
                                                     lists, maintaining consistency throughout the
and challenges associated with implementing
                                                     rule, and capturing the data necessary to fulfill
the Consumer Assistance To Recycle and Save
                                                     the Department’s reporting requirements in the
(CARS) Program. Major challenges facing the
                                                     CARS Act.
program included the compressed implementa-
                                                                      Semiannual Report to Congress  •  43
                                                      transport of hazardous materials under certain
                                                      special permits. Specifically, our review in-
 Management Advisory on FAA’s                         cluded examining PHMSA’s special permits and
                                                      approvals with respect to (1) PHMSA’s policies
 Contract for the Automatic                           and processes for reviewing and authorizing
 Dependent Surveillance-Broadcast                     special permits and approvals, (2) coordina-
 (ADS-B) Program.                                     tion among operating administrations, and
                                                      (3) oversight and enforcement of compliance.
 July 28, 2009
                                                      Our advisory identified shortcomings in the
 We issued our management advisory on our in-         special permit review and authorization process
 terim observations regarding FAA’s contract for      that call into question applicants’ fitness and
 ADS-B and actions that need to be addressed.         level of safety for permits allowing use of bulk
 Our ongoing review of the ADS-B contract re-         explosive vehicles. We also noted that coordi-
 veals a number of deficiencies in FAA’s contract     nation between PHMSA and the FMCSA must
 management. Taken together, these deficiencies,      be improved so that violation and incident infor-
 such as a lack of clearly defined requirements for   mation is considered before a special permit is
 critical services and inadequately documented        granted. In addition, we found that known safety
 contract changes, put the Government at risk of      concerns resulting from accident investigations
 overpaying or paying for something it does not       still remain largely unaddressed by PHMSA.
 want. The purpose of this advisory was to alert
 FAA of the actions that can be taken to increase     Speaking Engagements
 visibility into the contract and address problems
 with defining requirements, accounting for capi-     In addition to our other accomplishments, mem-
 tal costs, and establishing mechanisms to track      bers of the OIG shared their knowledge with the
 and monitor costs. Given the estimated cost of       DOT and other areas of the auditing community
 ADS-B and the role the new system is expected        through the following speeches:
 to play in transforming the National Airspace
                                                       •		 On April 21, 2009, the Inspector General,
 System, it is critical that FAA examine how the
                                                           the Principal Assistant Inspector General
 agency can best protect the Government’s in-
                                                           for Auditing and Evaluation, the Assistant
 terests. We provided the results of our analysis
                                                           Inspector General for Financial and In-
 to FAA officials responsible for managing the
                                                           formation Technology Audits, the Deputy
 ADS-B Program.
                                                           Assistant Inspector General for Surface and
                                                           Maritime Program Audits, a Chief Counsel
 Management Advisory on the                                for Legal, Legislative, and External Affairs,
 Transport of Hazardous Materials                          the Director of Audit Planning, Policy, and
                                                           Technical Support, and the Director of
 Under Special Permits                                     National Investigative Program and Op-
 July 28, 2009                                             erations all spoke with the China Ministry
                                                           of Transport’s delegation. They gave the
 We issued a management advisory to the                    delegation an overview of the OIG organiza-
 PHMSA regarding our ongoing review of the                 tion and business operation, audit process,


44   •  Other Accomplishments
                                                     Other Accomplishments

   audit work on transportation in-
   frastructure, investigative organization
   and priorities, and how the OIG preserved          ing Accountability. The PAIGAE’s speech
   independence in oversight work.                    focused on how the Recovery Act provided
                                                      billions of recovery funds to DOT, adding new
•		 On April 22, 2009, the IG participated
                                                      challenges on top of longstanding ones and
    in a panel discussion at the FHWA’s An-
                                                      that the need for accountability is critical.
    nual Meeting. The discussion was on Risk
                                                      She also discussed the following topics:
    Management which focused on our audit,
                                                      (1) OIG’s Risk-Based Strategy for Oversee-
    “ARRA: Oversight Challenges Facing the
                                                      ing the Recovery Act: 3 Phased Approach;
    Department.” The IG spoke about three
                                                      (2) Results of Phase I Comprehensive Re-
    major challenges facing DOT and FHWA:
                                                      port: Major Challenges Facing DOT; (3) En-
    (1) ensuring that DOT’s grantees properly
                                                      suring that DOT’s Grantees Properly Spend
    spend ARRA funds; (2) implementing new
                                                      Recovery Funds; (4) Implementing New
    accountability requirements mandated by
                                                      Accountability Requirements and Programs
    ARRA; and (3) combating fraud, waste, and
                                                      Mandated by the Recovery Act; (5) Combat-
    abuse.
                                                      ing Fraud, Waste, and Abuse; (6) Phase 2:
•		 On May 8, 2009, the Inspector General             Agency Scans to Identify Major Vulnerabili-
    participated in a panel discussion at the         ties and Needed Improvements of Course
    National Academy of Public Administra-            Corrections; and (7) Phase 3: Long-term
    tion. The discussion was on Management            Audit Plan Focusing on High-Risk Areas.
    Challenges Facing the Department and the          Also on June 4, 2009, the PAIGAE spoke
    OIG’s Role in Ensuring Accountability and         to the Mid-Atlantic Intergovernmental Audit
    Efficiency. The IG spoke on the following         Forum regarding this same information.
    topics: OIG’s Mission and Responsibilities;
                                                   •		 On May 14, 2009, the Assistant Inspector
    OIG’s Organizational Structure and Per-
                                                       General for Surface and Maritime Program
    formance Statistics; Key Examples of the
                                                       Audits, attended the Government Account-
    Types of OIG Reports and Activities; OIG’s
                                                       ability Offices’ Domestic Working Group
    New American Recovery and Reinvestment
                                                       Meeting and provided a presentation on our
    Act Responsibilities; DOT’s Top Manage-
                                                       ARRA work as part of a discussion of audit
    ment Challenges; Examples of DOT Orga-
                                                       coordination facilitated by Gene Dodaro,
    nizational Challenges; and Coordination
                                                       Acting Comptroller General.
    Requirements Within DOT for the Recovery
    Act.                                           •		 On May 14, 2009, a Program Director for
                                                       Surface and Maritime Program Audits,
•		 On May 13, 2009, the Principal Assistant In-
                                                       spoke before the Federal Audit Executive
    spector General for Auditing and Evaluation
                                                       Council’s monthly meeting and discussed
    (PAIGAE) spoke to the Potomac Forum on
                                                       OIG’s work on identifying key challenges
    the American Recovery and Reinvestment
                                                       facing DOT with the implementation of
    Act of 2009: Challenges Facing the Depart-
                                                       ARRA. He also discussed OIG’s plans for
    ment of Transportation and the Office of
                                                       conducting audit and investigative work on
    Inspector General’s Strategy for Promot-


                                                                  Semiannual Report to Congress  •  45
      DOT’s ARRA-funded programs.
   •		 On June 11, 2009, a Program Director for
       Surface and Maritime Program Audits,
       spoke before the Federal Audit Executive
       Council’s ARRA seminar on OIG’s strategy
       for conducting audit and investigative work
       on ARRA-funded programs.
   •		 On July 20, 2009, the Assistant Inspector
       General for Surface and Maritime Program
       Audits spoke to the American Association of
       State Highway and Transportation Officials
       (AASHTO) Audit Conference on challenges
       facing DOT in the implementation of the
       ARRA. He focused on specific risk areas
       identified in our audit work and noted future
       work planned by the Inspector General that
       could impact state and local officials.
   •		 On September 21, 2009, a Program Direc-
       tor for Aviation and Special Program Audits,
       spoke before the Pacific Northwest Inter-
       governmental Audit Forum on the “Recovery
       Act: The Work of Federal, State, and Local
       Auditors.” The presentation focused on the
       OIG’s strategy in overseeing the Depart-
       ment’s implementation of ARRA, including
       our three phase audit approach and lessons
       learned to date. n




46   •  Other Accomplishments
                                               Work Planned and In Progress



This section describes work projects currently underway or planned by OIG that focus on the Depart-
ment’s Strategic Plan and its core missions of transportation safety and mobility. We take into account
the need to support DOT’s most critical programs and to assure that departmental resources are
protected from fraud and waste. In addition, many of our projects arise from requests by Administra-
tion officials and members of Congress.

OIG developed the following work plan for the period of October 1, 2009 through March 31, 2010.




AVIATION AND SPECIAL PROGRAMS
IN PROGRESS
Review of FAA’s Automatic Dependent                  in response to FAA’s “Call to Action Plan” for
                                                     improving runway safety.
Surveillance Broadcast (ADS-B)
Program
                                                     Challenges to FAA’s Oversight of
At the request of the Chairmen of the House          On-Demand Operators
Transportation Infrastructure Committee and its
Aviation Subcommittee, we are reviewing FAA’s        OIG is identifying specific challenges to FAA’s
plans for implementing ADS-B. Specifically, our      oversight of on-demand operators.
objectives are to (1) examine key risks to FAA’s
successful implementation of ADS-B, and (2)
assess the strengths and weaknesses of FAA’s
                                                     Review of FAA Oversight of
proposed contracting approach.                       Maintenance Programs at One Air
                                                     Carrier
Review of FAA’s Call to Action Plan for              OIG is determining whether (1) maintenance-
Improving Runway Safety                              related events such as in-flight emergencies
                                                     or diversions or other negative maintenance-
At the request of Senator John Rockefeller and
                                                     related trends, have increased at this air carrier;
Senator Kay Bailey Hutchinson of the Senate
                                                     and (2) FAA has verified that the air carrier’s
Commerce, Science, and Transportation Com-
                                                     maintenance program, including its system of
mittee, we are conducting a comprehensive
                                                     continuous analysis and surveillance, is operat-
review of the current state of aviation safety,
                                                     ing effectively.
including runway safety issues. Our objective
is to evaluate the effectiveness of actions taken



                                                                       Semiannual Report to Congress  •  47
                                                       FAA’s Screening, Placing, and Initial
                                                       Training of Newly Hired Air Traffic
 FAA Oversight of Use of Airport
                                                       Controllers
 Revenue – Denver International
 Airport                                               At the request of Representative Jerry Costello,
                                                       Chairman of the House Transportation and In-
 OIG is determining whether FAA’s oversight            frastructure’s Aviation Subcommittee, we are
 ensures that the Denver International Airport is      reviewing FAA’s processes for screening, plac-
 using revenues only for airport purposes and          ing and training newly hired air traffic controllers.
 is as self-sustaining as possible. Since 1991,        Specifically, whether FAA’s screening test, Air
 our office has identified hundreds of millions of     Traffic Selection and Training, or AT-SAT, effec-
 dollars in airport revenues that airport sponsors     tively identifies candidates’ potential to become
 improperly used or did not collect.                   air traffic controllers and whether the FAA Acad-
                                                       emy adequately trains candidates before FAA
                                                       places them at facilities.
 Review of PHMSA’s Special Permits
 and Approvals Programs                                FAA Oversight of Required Navigation
 OIG is assessing the effectiveness of                 Performance (RNP) Third-Party
 PHMSA’s (1) policies and processes for
 reviewing and authorizing special permits
                                                       Agreements
 and approvals, (2) coordination with the af-          At the request of Representative Jerry Costello,
 fected Operating Administration before issu-          Chairman of the House Transportation and In-
 ing any of these special authorizations, and          frastructure’s Aviation Subcommittee, we are
 (3) oversight and enforcement of approved par-        assessing the extent to which FAA is relying on
 ties’ compliance with terms and conditions of         third-parties for the development of new RNP
 these authorizations.                                 procedures and determine whether FAA has
                                                       established sufficient mechanisms and has suf-
 Review of the Air Traffic Controller                  ficient staffing to provide safety oversight of the
                                                       third parties.
 Optimum Training Solution (ATCOTS)
 Program                                               Follow-Up Review of Aviation
 At the request of Representative Jerry Costello,      Transportation Oversight System
 Chairman of the House Transportation and In-
 frastructure’s Aviation Subcommittee, we are
                                                       (ATOS)
 reviewing the financial and contractual aspects       OIG is determining whether FAA has (1) com-
 of the ATCOTS program, as well as how the             pleted timely inspections of air carriers’ systems
 training program will differ from what is currently   for monitoring critical maintenance programs,
 provided to the controller workforce.




48   •  Work Planned and In Progress
                                                Work Planned and In Progress


(2) tested and validated that these
carrier systems are operating effectively, and
                                                      PLANNED
(3) effectively implemented ATOS for the remain-
ing air carriers regulated under 14 C.F.R. § 121.
                                                      Certification of Next Generation Air
Review of the System - Wide                           Transportation System Technologies
Information Management (SWIM)                         OIG will conduct an assessment of (1) recent
                                                      changes to the FAA’s certification program with
Program                                               regard to the FAA’s overall responsibility for
OIG is examining (1) the strengths and weak-          maintaining the safety and integrity of air traffic
nesses of FAA’s approach for developing and           control systems, and (2) the implications of al-
funding SWIM efforts, and (2) the effectiveness       lowing the private sector to assume the respon-
of FAA’s plan to identify and manage key risks        sibility for determining the operational suitability
that could affect a nationwide deployment or          of systems under its control.
limit anticipated benefits.
                                                      FAA Oversight of Pilot Workorce
Review of FAA’s Organization                          Issues – Pilot Training and Regional
Designation Authorization and Risk                    Airlines
Based Resource Targeting Processes                    OIG will (1) evaluate the effectiveness of FAA
At the request of Representative Daniel Lipinski      regulations and oversight of air carrier training
of the House Committee on Transportation and          programs for initial, recurrent, and new technolo-
Infrastructure, OIG is determining (1) the role FAA   gies pilot training; and (2) determine whether FAA
plays in the selection process for individuals who    and air carriers have access to sufficient data to
perform work under the Agency’s Organization          evaluate the competence and qualifications of
Designation Authorization program, (2) the ad-        pilots when they are hired. n
equacy of FAA’s safety oversight of the program,
and (3) the effectiveness of FAA’s Risk Based
Resource Targeting assessment process. n




                                                                        Semiannual Report to Congress  •  49
 HIGHWAY AND TRANSIT PROGRAMS

 IN PROGRESS

 NHTSA’s Oversight of Research and                     tively and efficiently use FHWA funds to correct
                                                       structurally deficient bridges.
 Demonstration Projects
 OIG is determining whether NHTSA (1) allocated        Assessment of the Central Artery/
 research funds and selected projects based on
 likelihood to reduce the number and severity of
                                                       Tunnel Stem to Stern Safety
 crashes or other targeting strategy; (2) system-      Review—Phase II
 atically evaluated and disseminated results to
 improve safety; and (3) used risk-based internal      OIG is performing follow up on the corrective
 control framework for oversight of contractors        actions taken in response to our report “Initial
 and grantees as a means to prevent fraud,             Assessment of the Central Artery/Tunnel Project
 waste, and abuse.                                     Stem to Stern Safety Review” in an effort to
                                                       continue to ensure that the Central Artery/Tunnel
                                                       Stem to Stern Safety Review is comprehensive
 FTA’s Oversight of the Access to the                  and conducted in a complete and rigorous man-
 Region’s Core (ARC) Project, Northern                 ner.
 New Jersey
                                                       FHWA Transportation Technology
 OIG is assessing the main risks facing a $9 billion
 proposed transit project and evaluating FTA’s
                                                       Innovation and Demonstration (TTID)
 oversight efforts to ensure that risk mitigation      Program
 strategies are implemented, based on several
 concerns identified in a 2009 annual report on        At the request of Senator Orrin Hatch and Con-
 New Starts Funding requirements.                      gressman Anthony Weiner, OIG is assessing
                                                       whether TTID (1) met its surveillance and data
                                                       management goals, (2) met the program objec-
 FHWA Funding to Correct Structurally                  tives and (3) provided for competition in the
 Deficient Bridges                                     award of contracts used to expand the program,
                                                       as specified in Section 5508 of SAFETEA-LU.
 OIG is evaluating whether FHWA provides ad-
 equate oversight to ensure state inspections are
 performed and recorded properly in accordance
 with the National Bridge Inspection standards,
 and assessing the extent to which states effec-




50   •  Work Planned and In Progress
                                              Work Planned and In Progress


Implementation of FMCSA’s
Motor Coach Safety Program                          PLANNED
OIG is determining FMCSA’s progress in effec-
tively implementing the six priorities in its Na-
                                                    Oversight of Local Public Agency
tional Motor Coach Safety Program as required       Projects (LPA)
by the Motor Carrier Safety Improvement Act of
                                                    OIG will assess FHWA’s oversight of the
1999.
                                                    $6-8 billion provided annually to localities along
                                                    with $8 billion in ARRA funding in the next three
Consumer Assistance to Recycle and                  years. It is planned to include a comparison
Save Act (CARS)                                     of the oversight provided to LPA programs ap-
                                                    proved through ARRA with those funded through
OIG is evaluating NHTSA’s execution of the          regular Federal-aid funding.
CARS program and identify challenges con-
fronted. Specifically, we will assess whether
NHTSA’s oversight and management controls
                                                    Effectiveness of FHWA National
ensure that CARS transactions (1) meet Federal      Review Teams
requirements; (2) use data that are accurate and
                                                    OIG will assess whether the National Review
reliable; and (3) are protected against fraud,
                                                    Teams have been effective in helping FHWA
waste, and abuse. n
                                                    oversee $26 billion in ARRA funding and mitigate
                                                    the key risks posed by the implementation of
                                                    ARRA.


                                                    Oversight of the Denali Access System
                                                    Program
                                                    OIG will assess the Denali Access System
                                                    Program’s performance in applying Federal-aid
                                                    highway funds to improve the surface and mari-
                                                    time transportation infrastructure of Alaska. n




                                                                     Semiannual Report to Congress  •  51
 RAIL & MARITIME PROGRAMS AND ECONOMIC ANALYSIS

 IN PROGRESS

 MARAD’s Title XI Loan Guarantee                    how effectively Amtrak prioritizes and coordi-
                                                    nates its capital investments to contribute to
 Program
                                                    the overall business goals of the corporation.
 OIG is determining whether MARAD is in compli-     Specifically we will assess (1) Amtrak’s five-year
 ance with the recommendations contained in our     capital requirement, (2) how Amtrak prioritizes
 2003 and 2004 audit reports on the Title XI Loan   its capital projects among competing needs,
 Guarantee Program. This audit was requested        (3) Amtrak’s FY 2009 capital needs, and (4) how
 by the Senate Committee on Appropriations,         Amtrak evaluates the performance of its capital
 Subcommittee on Transportation, Housing and        projects.
 Urban Development, and Related Agencies.
                                                    Causes of Amtrak Delays/Intercity
 Amtrak Quarterly Reports on                        Passenger Rail Service Bottlenecks
 Operational Savings
                                                    OIG is identifying the locations of “bottlenecks”
 OIG is issuing quarterly reports to the House      along Amtrak routes and try to determine the
 and Senate Committees on Appropriations on         causes using an econometric model. In particu-
 our estimates of the savings accrued as a result   lar, we will seek to identify which of these bottle-
 of operational reforms instituted by Amtrak, as    necks are due to congestion, or relative lack of
 mandated by Congress.                              capacity. In doing so, we will help to identify the
                                                    locations that warrant further, more in-depth
                                                    examination, as candidates for rail infrastructure
 Causes of Delays on the Amtrak                     investments.
 Cascades and Coast Starlight Routes
 OIG is reviewing the causes of Amtrak delays       Financial Analysis of Transportation
 and service interruptions on the two Amtrak        Related Public-Private Partnerships
 routes in response to Section 225 of Division B
                                                    (PPPs)
 of HR 2095, the “Passenger Rail Investment and
 Improvement Act of 2008”.                          OIG is performing analysis to (1) determine the
                                                    extent to which PPPs can address transporta-
 Review of Amtrak’s Five-Year                       tion infrastructure funding needs, (2) identify any
                                                    disadvantages to the public sector of PPP trans-
 Capital Plan                                       actions compared to more traditional financing
                                                    methods, and (3) identify any factors that allow
 At the request of the House Committee on Ap-
                                                    both the private and public sectors to derive
 propriations, we are reviewing and assessing
                                                    value from PPP transactions.

52   •  Work Planned and In Progress
                                                 Work Planned and In Progress

Rail Service Disruptions

As directed by the DOT Appropriations Act,             State Capacity to Meet High Speed
OIG is examining freight rail service disruptions      Rail (HSR) Demands
since 2004, with a focus on the timeliness of
shipments of commodities such as coal, wheat,          OIG will review and evaluate (1) the range of
ethanol and lumber and making legislative and          capabilities in the states to plan, design, and
regulatory recommendations to reduce such              manage HSR projects; (2) what constitutes a
disruptions in the future.                             strong state passenger rail department and how
                                                       those developed; and (3) examples of how state
                                                       capacity was created to manage other state-led
Review of Freight Access Fees Paid
                                                       Federally-funded programs, such as Federal-aid
by Amtrak                                              highways.
As directed by the Committees on Appro-
priations, OIG is examining and will report            Industry Capacity to Meet
details of any and all user fees paid by Amtrak        High Speed Rail Demands
to freight railroads, irrespective of funding
source, for access to the right of way and any         OIG will evaluate industry capacity to meet HSR
incentive payments paid related to on time             manufacturing needs and examples of Federally-
performance. n                                         assisted efforts to develop a manufacturing base
                                                       in other areas.
PLANNED
                                                       State-Railroad Operating Agreements
Review Amtrak’s Annual Budget and
Five Year Plan                                         OIG will examine what has and has not worked
                                                       in terms of enforceable agreements between
OIG will review Amtrak’s annual budget and             states and host railroads that ensure public ben-
5-year financial plan to determine whether they        efits are derived from the public investment in
meet the requirements of the statute.                  High Speed Rail. Our goal would be to develop
                                                       best practices in this area.

Utilization of Amtrak’s Maintenance
Facilities                                             Ridership/Revenue and Public Benefits
                                                       Forecasting
OIG will examine (1) Amtrak’s use of its existing
equipment maintenance and repair facilities, (2)       OIG will examine the range of modeling tech-
the productivity of such facilities, and (3) the ex-   niques used to forecast ridership/revenue and
tent to which Amtrak is maximizing maintenance         estimate public benefits with a goal of improving
opportunities including maintenance and repair         states’ abilities to develop these forecasts and
to other rail carriers.                                the Department’s ability to evaluate the output
                                                       of these models. n

                                                                        Semiannual Report to Congress  •  53
 FINANCIAL AND INFORMATION TECHNOLOGY

 IN PROGRESS

 FAA’s Correction of Security                          DOT’s Implementation of Personal
 Weaknesses in Air Traffic Control                     Identity Verification (PIV) Cards
 Systems                                               OIG is determining if DOT (1) has an effective
 OIG is assessing the progress and will report on      process to issue, maintain, and terminate func-
 the status of FAA’s efforts to (1) correct security   tional PIV cards for employees and contractors;
 weaknesses identified previously in air traffic       and (2) is adequately protecting the personal
 control systems, (2) develop a business conti-        information collected, stored, processed, and
 nuity plan to ensure continued en route center        transmitted on the PIV systems, based on the
 operations, and (3) conduct security certification    Homeland Security Presidential Directive 12
 reviews to identify software differences between      “Policy for a Common Identification Standard
 operational air traffic control systems and the       for Federal Employees and Contractors”.
 baseline systems tested in the computer labora-
 tory.                                                 DOT’s Information Security Program
                                                       and Practices for FY 2009
 Security and Privacy Controls Over
                                                       OIG is performing the annual review required by
 the Medical Support System                            the Federal Information Security Management
 At the request of the Chairmen of the House           Act of 2002. We will determine the effectiveness
 Committee on Transportation and Infrastruc-           of DOT’s information security program and prac-
 ture and its Subcommittee on Aviation, OIG is         tices and complete OMB’s template for security
 determining whether (1) airmen’s personally           assessments and performance measures.
 identifiable information is properly secured from
 unauthorized use or access, and (2) FAA has           Improper Payments in the Airport
 made progress in establishing a program to
 flag airmen holding a current medical certificate
                                                       Improvement Program (AIP)
 while receiving disability pay.                       OIG is determining whether FAA has adequate
                                                       controls to prevent and detect improper pay-
                                                       ments to grant recipients of AIP.




54   •  Work Planned and In Progress
                                              Work Planned and In Progress


Quality Control Review
of FYs 2008 and 2009 DOT                           Access to Classified Information
Consolidated Financial Statements,                 Networks
FAA Financial Statements, and NTSB
                                                   OIG will perform a review of DOT’s access to
Financial Statements                               classified information in the new Headquarters
                                                   building to determine whether adequate controls
OIG is performing a quality control review of
                                                   are in place to prevent and detect unauthorized
the audit performed by an independent public
                                                   disclosure, alteration or destruction of classified
accounting firms and determining if the audit
                                                   information.
was performed in accordance with applicable
auditing standards. n
                                                   Implementation of DOT Enterprise
PLANNED                                            Architecture for IT Investment
Next Generation Air Traffic Control                OIG will perform a review of DOT’s development
                                                   and implementation of an Enterprise Architecture
System Security Design                             to direct future IT system development efforts.
OIG will perform a review of the security design
incorporated in the Next Generation Air Traffic    Security Protection of Airmen Registry
Control System development, including pilot
programs such as the Automatic Dependent
                                                   System
Surveillance-Broadcast and the System Wide         OIG will perform a review of security protection
Information Management system.                     of airmen’s personally identifiable information
                                                   and the integrity of the data collected.
Security of DOT Web Sites
OIG will perform a review of security protec-
                                                   Resolution of Single Audit Findings on
tion of DOT Web sites, including those used to     Grantees’ Use of DOT Funds
support ARRA operations, to reduce the risk of
defacement, alteration, or destruction of DOT      OIG will perform a review of DOT management’s
data.                                              follow-up with grantees to recover questionable
                                                   costs and to correct control deficiencies af-
                                                   fecting DOT grant agreements, including ARRA
                                                   operations.




                                                                    Semiannual Report to Congress  •  55
                                                     Use of NHTSA Drug Control Fund
 FHWA Improper Payment Controls
                                                     OIG will perform the annual attestation review
 OIG will perform a review of the controls imple-    to ensure that the FY 2009 Drug Control Report
 mented by FHWA Headquarters and divisional          submitted to the Office of National Drug Control
 offices to prevent and detect improper payments     Policy is not materially misstated. n
 to Federal-aid highway grant recipients.




  ACQUISITION AND PROCUREMENT

  IN PROGRESS

  DOT’s Suspension and Debarment                     FMCSA’s Contract Practices
  Policies and Procedures                            OIG is determining whether FMCSA’s contract
                                                     award and administration practices comply
  OIG is determining whether (1) the Department’s
                                                     with applicable laws and regulations and follow
  suspension and debarment policies and pro-
                                                     agency-specific guidance. n
  cedures are adequate to ensure that fraudulent
  or unethical individuals or companies are ex-
  cluded from contracts, grants, and cooperative     PLANNED
  agreements; and (2) operating administrations
  are effectively implementing the Department’s      Planning for the Department’s
  suspension and debarment policies and proce-       Acquisition Workforce Requirements
  dures.
                                                     OIG will determine whether DOT and its agen-
                                                     cies, other than FAA, have made adequate
  Review of the Use of Price and Cost                progress developing a strategic plan for the
  Analysis for Newly Awarded and                     acquisition workforce. Specifically we will deter-
  Modified Contracts                                 mine whether the Department has (1) sufficiently
                                                     estimated acquisition workforce requirements
  OIG is determining whether FAA (1) sufficiently    based on expected acquisitions; (2) asessed the
  justified and properly reviewed and approved       capabilities of the workforce; and (3) made suf-
  the use of non-competitive contracts and (2) ad-   ficient progress training, recruiting, and retaining
  equately performed and properly documented         its workforce.
  price and cost analyses applicable to the con-
  tract.




56   •  Work Planned and In Progress
                                                 Work Planned and In Progress


Using Performance Metrics
to Improve Acquisition                                 acquisition function in which we will address
                                                       the following: (1) organizational alignment and
OIG will determine whether DOT and its agen-
                                                       leadership (Has OST aligned acquisition with
cies have sufficiently assessed its acquisition
                                                       DOT’s mission needs and provided clear and
function and established goals and performance
                                                       ethical leadership focused on communication?);
metrics to strengthen acquisition. Specifically,
                                                       (2) policies and processes (Has OST implement-
we will determine whether assessments of ac-
                                                       ed clear and transparent policies and processes
quisition were conducted, evaluations of controls
                                                       to govern its planning, awarding, administration
over entity processes were performed, tests of
                                                       and oversight of acquisitions?); (3) acquisition
transaction-level control design and operation
                                                       workforce (Has OST developed and maintained
were completed for each phase of the acquisi-
                                                       a competent acquisition workforce to support
tion, and use of strategic goals and performance
                                                       the Department’s mission?); and (4) knowledge
metrics is effective for improving acquisition.
                                                       and information management (Does OST use
                                                       of a variety of technologies, tools and data that
Planning for FAA’s Acquisition                         help managers and staff make well-informed
Workforce Requirements                                 acquisition decisions?)

OIG will determine whether FAA has made
                                                       FHWA’s Oversight of Federal-aid
adequate progress developing a strategic plan
for the acquisition workforce. Specifically we         State ARRA Contract Award Practices
will determine whether the FAA has (1) suf-
                                                       OIG will determine whether FHWA’s oversight
ficiently estimated acquisition workforce
                                                       of state level contracting award practices is
requirements based on expected acquisitions,
                                                       adequate to ensure compliance with laws and
including NextGen requirements; (2) assessed
                                                       regulations.
the capabilities of the workforce; (3) made suf-
ficient progress training, recruiting, and retaining
its workforce; and (4) determined the proper mix       FTA’s Oversight of Grantees’ARRA
of contractors supporting its workforce.               Contract Award and Administration
                                                       Practices
Acquisition Organization Scan
                                                       OIG will determine whether FTA’s oversight of
OIG will analyze to what extent OST has                transit administration level contracting practices
implemented aspects of efficient, effective            is adequate to ensure compliance with laws and
and accountable acquisition process cited in           regulations. n
OMB Circular 123 and GAO’s Framework to
Assess the Acquisition Function (2005). This
will be a high-level, quantitative assessment
of the strengths and weaknesses of OST’s

                                                                        Semiannual Report to Congress  •  57
                                                Statistical Performance Data


Summary of Performance
Office of Inspector General
April 1 – September 30, 2009
(Dollars in Thousands)




              Reports Issued                                       61


              Recommendations Issued                              138


              Congressional Testimonies                             7


              Total Financial Recommendations                $24,639


                    That Funds Be Better Used                      $0
                    Questioned Costs                         $24,639


              Indictments                                          46


              Convictions                                          63


              Fines, Restitutions, Recoveries
              and Cost Avoided                              $244,029




                                                          Semiannual Report to Congress  •  59
 Audits
 Completed OIG Reports
 April 1 – September 30, 2009
 (Dollars in Thousands) *


                              Number         Number of       Questioned   Unsupported     Funds to be
       Type of Review        of Reports   Recommendations      Costs         Costs      Put to Better Use

   Internal Audits
   Performance/                    9                49           $0             $0                 $0
   Attestation
   Engagements

   Financial Audits                0                 0           $0             $0                 $0

   Other OIG                       0                 0           $0             $0                 $0
   Reports

   Total Internal                  9                49           $0             $0                 $0
   Audit Reports

   Grant Audits
   Audits of Grantees             52                89      $24,639             $0                 $0
   Under Single Audit
   Act


   TOTALS                         61               138      $24,639             $0                 $0


 * The dollars shown are the amounts reported to management. The actual amounts may change
 during final resolution.

 DOT programs and operations are primarily carried out by the Department’s own personnel and recipi-
 ents of Federal grants. Audits by DOT’s OIG, as a result, generally fall into three categories: internal
 audits of Departmental programs and operations, audits of grant recipients, and other OIG reports. The
 table above shows OIG’s results for the 6 months covered by this report.



60   •  Statistical Performance Data
                                              Statistical Performance Data




OIG Reports with Recommendations that Questioned Costs
April 1 – September 30, 2009
(Dollars in Thousands)


                               Number of       Number of        Questioned        Unsupported
                                Reports     Recommendations       Costs              Costs

 A.	 For which no                   25                49        $44,507                    $0
      management decision
      had been made by the
      start of the reporting
      period

 B.	 Which were issued              27                42        $24,639                    $0
      during the reporting
      period


      Totals (A+B)	                 52                91        $69,146                    $0

 C.	 For which a                    24	               41        $12,299                    $0
      management decision
      was made during the
      reporting period

      (i) dollar value of           13                18          $6,667                   $0
      disallowed costs*

      (ii) dollar value of          19                30          $6,151                   $0
      costs not disallowed *

 D	   For which no                  29                50        $56,846                    $0
      management decision
      had been made by the
      end of the reporting
      period


* Includes reports and recommendations where costs were both allowed and disallowed.




                                                                 Semiannual Report to Congress  •  61
 OIG Reports with Recommendations that Funds Be Put to Better Use
 April 1 – September 30, 2009
 (Dollars in Thousands)


                                                              Number of        Funds to be
                                       Number of Reports   Recommendations   Put to Better Use

   A.	 For which no                                  1                   2           $23,900
        management decision
        had been made by the
        start of the reporting
        period

   B.	 Which were issued                             0                   0                  $0
        during the reporting
        period


        Totals (A+B)                                 1                   2           $23,900

   C.   For which a                                  1                   2           $23,900
        management decision
        was made during the
        reporting period

        (i) dollar value of                          1                   1           $48,100
        disallowed costs*

        (ii) dollar value of                         1                   1              $3,900
        costs not disallowed*

   D    For which no                                 0                   0                  $0
        management decision
        had been made by the
        end of the reporting
        period


 * Includes reports and recommendations where costs were both allowed and disallowed.




62   •  Statistical Performance Data
                                                     Statistical Performance Data




OIG Reports Recommending Changes for Safety, Economy or Efficiency
April 1 – September 30, 2009


                                                                                          Number of
                                                                 Number of Reports     Recommendations

 A.	 For which no management decision had been made by                       18                    44
      the start of the reporting period

 B.	 Which were issued during the reporting period                           38                    96


      Totals (A+B)                                                           56                   140

 C.   For which a management decision was made during the                    33                    85
      reporting period*

 D    For which no management decision had been made by                      28                    55
      the end of the reporting period*


* Includes reports where management both made and did not make a decision on recommenda-
tions.

                                            # of Reports with                             # of Safety,
                           # of Total      Safety, Economy, or                            Economy, or
                        Reports for this        Efficiency           # of Total            Efficiency
      AUDIT TYPE        Reporting Period   Recommendations       Recommendations       Recommendations

 Performance                        9                      9                 49                    49
 Financial                          0                      0                  0                     0
 Other                              0                      0                  0                     0
 Grants                           52                     29                  89                    47


 TOTALS	                          61
                    38                 138                    96




                                                                         Semiannual Report to Congress  •  63
 Management Decisions Regarding OIG Recommendations
 April 1 – September 30, 2009
 (Dollars in Thousands)


                              Number         Number of       Questioned   Unsupported     Funds to be
         Description         of Reports   Recommendations      Costs         Costs      Put to Better Use

   Unresolved as of               42                95      $44,507             $0          $23,900
   04/01/2009

   Audits with Findings           60               138      $24,639             $0                 $0
   During Current
   Period

   Total to be                  102                233      $69,146             $0          $23,900
   Resolved

   Management Decisions
   Audits Prior                   28                56       $7,203             $0          $23,900
   Period ‡

   Audits Current                 27                72       $5,096             $0                 $0
   Period ‡

   Total Resolved                 55               128      $12,299             $0          $23,900

   Aging of Unresolved Audits*
   Less than 6 mos. old           35                66      $19,542             $0                 $0
   6 mos. – 1 year                 8                13      $19,966             $0                 $0
   1 year – 18 mos.                6                12       $4,983             $0                 $0
   18 mos. – 2 years               1                 2       $1,158             $0                 $0
   Over 2 years old                3                12      $11,196             $0                 $0

   Unresolved as of               53               105      $56,845             $0                 $0
   09/30/2009


 ‡ – Includes reports and recommendations where costs were both allowed and disallowed.
 * – Considered unresolved if management decisions have not been made on all report recommenda-
 tions.

64   •  Statistical Performance Data
                                                    Statistical Performance Data


Office of Inspector General Reports
April 1 – September 30, 2009

DEPARTMENTWIDE

Grant Audits: Audits of Grantee Under Single Audit Act – 1 report

                                                                                              Focus of Report/
     Report         Date                                Title                                Recommendations

QC-2009-089     09/21/2009   City of Phoenix                                            Improve grantee oversight




FEDERAL AVIATION ADMINISTRATION

Internal Audits: Performance/Attestation – 6 reports

                                                                                              Focus of Report/
     Report         Date                                Title                                Recommendations

AV-2009-047     04/23/2009   Controller Staffing at Key California Air Traffic          FAA needs to focus on
                             Control (ATC) Facilities                                   staffing, training, and
                                                                                        maintaining experienced
                                                                                        Air Traffic Controllers at
                                                                                        Key ATC facilities.
FI-2009-049     05/04/2009   Review of Web Applications Security and Intrusion          FAA needs to strengthen
                             Detection in Air Traffic Control Systems                   intrusion–detection ca-
                                                                                        pability web applications
                                                                                        to monitor and detect
                                                                                        potential cyber security
                                                                                        incidents at ATC facilities.




                                                                                 Semiannual Report to Congress  •  65
                                                                                                   Focus of Report/
        Report            Date                                   Title                            Recommendations

  AV-2009-057         05/14/2009       FAA is Not Realizing the Full Benefits of the Avia-   FAA needs to improve
                                       tion Safety Action Program (ASAP)                     the program in (1)
                                                                                             revising ASAP guidance,
                                                                                             (2) clarifying the ERC’s
                                                                                             authority and role in
                                                                                             ASAP, (3) require inspec-
                                                                                             tors to redouble efforts,
                                                                                             and (4) develop a central
                                                                                             management database
                                                                                             of all air carriers’ ASAP
                                                                                             reports.
  AV-2009-059         06/08/2009       Training Failures Among Newly Hired Air Traffic       FAA needs to focus on
                                       Controllers                                           developing procedures to
                                                                                             obtain accurate data on
                                                                                             training failures in order
                                                                                             to effectively monitor and
                                                                                             improve its controller
                                                                                             training program
  AV-2009-065         06/25/2009       Air Traffic Control: Potential Fatigue Factors        FAA needs to focus
                                                                                             and take actions at the
                                                                                             national level to mitigate
                                                                                             potential fatigue factors
                                                                                             and enhance the level
                                                                                             of safety of the National
                                                                                             Airspace System
  AV-2099-066         07/13/2009       Report on On–Demand Operators: Less Stringent         FAA needs to take actions
                                       Safety Requirements and Oversight than Large          to enhance safety and
                                       Commercial Air Carriers                               oversight of on–demand
                                                                                             operators




66   •  Statistical Performance Data
                                                      Statistical Performance Data


Grant Audits: Audits of Grantee Under Single Audit Act – 21 reports


                                                                                         Focus of Report/
     Report        Date                                  Title                          Recommendations

QC-2009-052     05/12/2009   State of Illinois                                     Improve grantee oversight
QC-2009-054     05/12/2009   Clark County, Nevada, Department of Aviation          Improve grantee oversight
QC-2009-055     05/12/2009   Antonio B. Won Pat International Airport Authority    Improve grantee oversight
QC-2009-058     05/19/2009   City of Fort Worth, TX                                $122,248 questioned
QC-2009-078     08/21/2009   Calhoun County, Mississippi                           $23,550 questioned
QC-2009-079     08/21/2009   City of Atlanta, Georgia                              Improve grantee oversight
QC-2009-083     08/21/2009   Airport Authority, City of Sydney, Nebraska           $13,901 questioned
QC-2009-086     08/25/2009   Gulfport-Biloxi Regional Airport Authority            $2,450,143 questioned
QC-2009-087     08/25/2009   City of Tracy, California                             $1,454,400 questioned
QC-2009-093     09/23/2009   Broward County                                        Improve grantee oversight
QC-2009-095     09/23/2009   City of Red Bluff, California                         $22,372 questioned
QC-2009-096     09/23/2009   Johnstown-Cambria County Airport Authority            $38,476 questioned
QC-2009-097     09/23/2009   City of Fort Lauderdale, Florida                      $48,674 questioned
QC-2009-098     09/23/2009   National Academy of Sciences                          Improve grantee oversight
QC-2009-102     09/29/2009   State of Texas                                        Improve grantee oversight
QC-2009-103     09/29/2009   Michigan Department of Transportation                 $48,000 questioned
QC-2009-104     09/29/2009   Federated States of Micronesia National               $1,175,981 questioned
                             Government
QC-2009-105     09/29/2009   State of Rhode Island & Providence Plantations        $641,620 questioned
QC-2009-107     09/29/2009   City of Fort Worth, Texas                             $82,543 questioned
QC-2009-108     09/29/2009   Commonwealth of Pennsylvania                          $67,757 questioned
QC-2009-109     09/29/2009   Capital Area Transit System                           $258,736 questioned




                                                                            Semiannual Report to Congress  •  67
 FEDERAL HIGHWAY ADMINISTRATION

 Grant Audits: Audits of Grantee Under Single Audit Act – 13 reports

                                                                                                Focus of Report/
        Report            Date                                   Title                         Recommendations

  QC-2009-050         05/12/2009       State of New York                                   $979,474 questioned
  QC-2009-051         05/12/2009       Commonwealth of Kentucky                            Improve grantee oversight
  QC-2009-053         05/12/2009       Commonwealth of Pennsylvania                        Improve grantee oversight
  QC-2009-056         05/12/2009       State of Rhode and Providence Plantations           Improve grantee oversight
  QC-2009-058         05/19/2009       City of Fort Worth, Texas                           $122,248 questioned
  QC-2009-060         06/17/2009       State of Minnesota                                  $11,151,000 questioned
  QC-2009-062         06/17/2009       Commonwealth of Kentucky                            Improve grantee oversight
  QC-2009-063         06/17/2009       State of Louisiana                                  $454,709 questioned
  QC-2009-069         08/21/2009       City of Tulsa, Oklahoma                             Improve grantee oversight
  QC-2009-072         08/21/2009       State of Hawaii Department of Transportation        Improve grantee oversight
                                       Highways Division
  QC-2009-074         08/21/2009       Puerto Rico Highways and Transportation Authority   Improve grantee oversight
  QC-2009-084         08/25/2009       City of Kansas City, Missouri                       $554,496 questioned
  QC-2009-099         09/29/2009       Government of Guam                                  Improve grantee oversight




68   •  Statistical Performance Data
                                                    Statistical Performance Data


FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION

Internal Audits: Performance/Attestation – 2 reports

                                                                                              Focus of Report/
     Report         Date                               Title                                 Recommendations

FI-2009-067     07/30/2009	   Report on the Audit of the Data Integrity of the          FMCSA has taken mea-
                              Commercial Driver’s License Information System            sures to strengthen the
                                                                                        CDL program, but addi-
                                                                                        tional action is necessary
                                                                                        to increase the safety of
                                                                                        the Nation’s highways
MH-2009-068     08/17/2009	   Follow-up Audit on the Implementation of the North        FMCSA continues to take
                              American Free Trade Agreement’s Cross-Border              actions to improve the
                              Trucking Provisions                                       border safety program,
                                                                                        but needs to enhance the
                                                                                        consistency of information
                                                                                        reported to the Mexican
                                                                                        Conviction Database
                                                                                        (MCDB) and its capac-
                                                                                        ity to perform safe and
                                                                                        efficient bus inspections
                                                                                        at border crossings.




                                                                                 Semiannual Report to Congress  •  69
 FEDERAL TRANSIT ADMINISTRATION

 Grant Audits Audits of Grantee Under Single Audit Act – 18 reports

                                                                                             Focus of Report/
        Report            Date                                     Title                    Recommendations

  QC-2009-061         06/17/2009       Tri-County Metropolitan Transportation,          Improve grantee oversight
                                       District of Oregon
  QC-2009-070         08/21/2009       Dallas Area Rapid Transit                        Improve grantee oversight
  QC-2009-071         08/21/2009       Northern Arizona Intergovernmental               $155,539 questioned
                                       Public Transportation Authority
  QC-2009-073         08/21/2009       Orange County Transportation Authority           Improve grantee oversight
  QC-2009-075         08/21/2009       Port Authority of Allegheny County               $660,000 questioned
  QC-2009-076         08/21/2009       Metropolitan Transit Authority of                Improve grantee oversight
                                       Harris County, Texas
  QC-2009-077         08/21/2009       San Joaquin Regional Rail Commission             $38,997 questioned
  QC-2009-080         08/21/2009       City of Roanoke, Virginia                        $178,641 questioned
  QC-2009-081         08/21/2009       Clark County, Nevada                             Improve grantee oversight
  QC-2009-082         08/21/2009       Massachusetts Bay Transportation Authority       Improve grantee oversight
  QC-2009-085         08/25/2009       Southeastern Regional Transit Authority          $554,496 questioned
  QC-2009-087         08/25/2009       City of Tracy, California                        $1,454,400 questioned
  QC-2009-091         09/23/2009       Ki Bois Community Action Foundation              $105,670 questioned
  QC-2009-092         09/23/2009       Miami-Dade County Transit Department             Improve grantee oversight
  QC-2009-094         09/23/2009       Valley Regional Transit                          $65,074 questioned
  QC-2009-100         09/29/2009       METRA                                            Improve grantee oversight
  QC-2009-101         09/29/2009       Central Puget Sound Regional Transit Authority   Improve grantee oversight
  QC-2009-106         09/29/2009       Los Angeles County Metropolitan Transportation   $3,332,211 questioned
                                       Authority




70   •  Statistical Performance Data
                                                   Statistical Performance Data


NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

Grant Audits: Audits of Grantee Under Single Audit Act – 2 reports

                                                                                        Focus of Report/
     Report         Date                                Title                          Recommendations

QC-2009-051     05/12/2009    Commonwealth of Kentucky                            Improve grantee oversight
QC-2009-064     06/17/2009    State of Delaware                                   $495,544 questioned




OFFICE OF THE SECRETARY OF TRANSPORTATION

Internal Audits: Performance/Attestation –1 report

                                                                                        Focus of Report/
     Report         Date                                Title                          Recommendations

QC-2009-048     04/24/2009	   Quality Control Review of the Department’s          The Department will
                              Implementation of Earned Value Management and       establish a standard
                              Security Cost Reporting                             method to accurately and
                                                                                  consistently estimate the
                                                                                  costs of implementing
                                                                                  IT security. The security
                                                                                  cost estimates for Exhibit
                                                                                  300 submissions cannot
                                                                                  be fully supported.




                                                                           Semiannual Report to Congress  •  71
 Office of Inspector General Congressional Testimonies
 April 1 – September 30, 2009


      Control No.         Date                                Subject                                    Before

  CC-2009-058         04/29/2009       American Recovery and Reinvestment Act: DOT’s          Committee on Transporta-
                                       Implementation Challenges and the OIG’s Strategy       tion and Infrastructure
                                       for Continued Oversight of Funds and Programs          U.S. House of Represen-
                                                                                              tatives
  CC-2009-062         04/30/2009       American Recovery and Reinvestment Act: DOT’s          Committee on Appropria-
                                       Implementation Challenges and the OIG’s Strategy       tions, Subcommittee on
                                       for Continued Oversight of Funds and Programs          Transportation, Housing
                                                                                              and Urban Development,
                                                                                              and Related Agencies
                                                                                              U.S. Senate
  CC-2009-067         05/20/2009       Progress and Remaining Challenges in Reducing          Committee on Transpor-
                                       Flight Delays and Improving Airline Customer           tation and Infrastructure,
                                       Service                                                Subcommittee on Aviation
                                                                                              U.S. House of Represen-
                                                                                              tatives
  CC-2009-081         06/10/2009       The Federal Aviation Administration’s Role in Safety   Committee on Commerce,
                                       Oversight of Air Carriers                              Science and Transporta-
                                                                                              tion, Subcommittee on
                                                                                              Aviation Operations,
                                                                                              Safety, and Security
                                                                                              U.S. Senate
  CC-2009-075         06/11/2009       Regional Air Carriers and Pilot Workforce Issues       Committee on Transporta-
                                                                                              tion and Infrastructure,
                                                                                              Subcommittee on Aviation
                                                                                              U.S. House of Represen-
                                                                                              tatives
  CC-2009-086         07/29/2009       Challenges in Implementing Performance–Based           Committee on Transpor-
                                       Navigation in the U.S. Air Transportation System       tation and Infrastructure,
                                                                                              Subcommittee on Aviation
                                                                                              U.S. House of Represen-
                                                                                              tatives




72   •  Statistical Performance Data
                                                  Statistical Performance Data




  Control No.      Date                            Subject                                  Before

CC-2009-096     09/10/2009   PHMSA’s Process for Granting Special Permits and    Committee on Transporta-
                             Approvals for Transporting Hazardous Materials      tion and Infrastructure
                             Raises Safety Concerns                              U.S. House of Represen-
                                                                                 tatives




                                                                          Semiannual Report to Congress  •  73
 Unresolved Recommendations Over 6 Months Old

 Cited in Semiannual Report for October 1, 2005 – March 31, 2006


                           Title                           Report Number   Final Issue Date

  Air Carriers Use of Non-Certificated Repair Facilities   AV-2006-031     12/15/05





 Cited in Semiannual Report for April 1, 2007 – September 30, 2007


                           Title                           Report Number   Final Issue Date

  Review of Amtrak Board of Directors                      CR-2007-074     09/14/07

  State of Minnesota                                       QC-2007-058     07/18/07





 Cited in Semiannual Report for October 1, 2007 – March 31, 2008


                           Title                           Report Number   Final Issue Date

  Oglala Sioux Tribe                                       QC-2008-037     03/06/08




74   •  Statistical Performance Data
                                                      Statistical Performance Data




Cited in Semiannual Report for April 1, 2008 – September 30, 2008


                           Title                      Report Number         Final Issue Date

Northern Arizona Intergovenmental Public              QC-2008-083          09/25/08
Transportation Authority
Government of Guam                                    QC-2008-085          09/25/08
City of Nashua                                        QC-2008-073          09/03/08
Pioneer Valley Transit Authority                      QC-2008-075          09/03/08
Tri-County Metropolitan Transportation District of    QC-2008-061          07/24/08
Oregon
Review of FAA’s Oversight of Airlines’ Regulatory     AV-2008-057          06/30/08
Partnership Programs and Internal Review Process




Cited in Semiannual Report for April 1, 2008 – September 30, 2008


                           Title                      Report Number         Final Issue Date

Review of FAA's Process for Investigating and         AV-2009-045          03/24/09
Reporting Operational Errors and Pilot Deviations
Comanche Nation                                       QC-2009-044          03/20/09
State of Minnesota                                    QC-2009-042          03/17/09
North Delta Planning and Development District, Inc.   QC-2009-037          02/18/09
Clark County, Nevada                                  QC-2009-017          01/13/09
Orange County Transportation Authority                QC-2009-019          01/13/09
State of Maine                                        QC-2009-025          01/13/09
State of Hawaii, Department of Transportation         QC-2009-029          01/13/09




                                                                      Semiannual Report to Congress  •  75
 Investigations
 Judicial and Administrative Actions
 April 1, 2009 - September 30, 2009

            Indictments                                                                 46
            Convictions                                                                 63
            Years Sentenced                                                             81
            Years Supervised Release                                                    62
            Years Probation                                                             37
            Hours of Community Service                                                 788
            Debarment/Suspension                                                        12
            Employee Terminations                                                        0
            Employee Suspensions                                                         3
            Reprimand                                                                    5
            Resignation/Retirement                                                       2
            Counseling                                                                   5
            Decertified                                                                  2
            Federal Funding Reduced/Terminated                                           3
            Certificate/License Suspended/Revoked/Terminated                             8

                                            Financial Impact

            Fines (& Special Assessments)                                    $215,049,851
            Restitution                                                       $23,330,001
            Recoveries                                                         $4,514,860
            Cost Avoided                                                       $1,134,636
            Total                                                            $244,029,348


 During the 6 month period covered by this report, 65 cases were opened and 82 were closed,
 leaving a pending caseload of 440. In addition, 37 individuals/companies were referred for prosecution,
 37 were accepted for prosecution, and 45 were declined.

76   •  Statistical Performance Data
                                                     Statistical Performance Data




  Profile of All Pending Investigations as of 09/30/2009


                                 Types of Cases

                    Number of Aviation   Motor     HazMat   Contract   Grant     Qui Tam Employee Intrusion   Other
                     Cases     Safety    Carrier             Fraud     Fraud              Integrity
                                         Safety


FAA                  176        92         0         8         9        12          1       31        2       21
FHWA                 115         0         0         0        35        66          5        1        0        8
FMCSA                 65         0        45        11         0         0          0        2        0        7
FRA                     2        0         0         1         0         0          0        0        0        1
FTA                   30         0         0         0         7        22          0        0        0        1
MARAD                   5        0         0         1         0         1          1        2        0        0
NHTSA                   9        0         0         0         0         2          0        2        0        5
OST                     9        0         0         0         3         0          0        3        1        2
PHMSA                 24         0         0        21         0         0          0        2        0        1
RITA                    3        0         0         0         1         0          0        2        0        0
Other                  2         0         0         0         0        0          0         1        0        1

Totals               440        92       45         42       55        103         7       46         3       47

Percent of Total:              21%       10%       10%      13%        23%         2%      10%       1%       11%




                                                                               Semiannual Report to Congress  •  77
                                                        Mission and Organization



The Office of Inspector General for the Department of Transportation was created by Congress through
the Inspector General Act of 1978 (Public Law 95-452). The Act sets several goals for OIG:


 •		 To conduct or supervise objective audits and investigations of the Department’s programs and
     operations;
 •		 To promote economy, effectiveness, and efficiency within the Department;
 •		 To prevent and detect fraud, waste, and abuse in the Department’s programs;
 •		 To review existing and proposed laws or regulations affecting the Department and make recom-
     mendations about them;
 •		 To keep the Secretary of Transportation and Congress fully informed about problems in depart-
     mental programs and operations.

The Inspector General is committed to fulfilling its statutory responsibilities and assisting members
of Congress, the Secretary, senior Department officials, and the general public in achieving a safe,
efficient, and effective transportation system.

OIG is divided into two major units – audits and investigations - and three support units.




The major units are:

Audits and Evaluations
The Office of the Principal Assistant Inspector General for Auditing and Evaluations.

This office supervises and conducts all audit activities related to DOT programs and operations. This
office is divided according to specific DOT program areas into 5 sub-offices. The areas covered by
these offices are Aviation and Special Programs; Financial and Information Technology, Highway and
Transit Programs, Rail and Maritime programs and Economic Analysis, and Acquisition and Procure-
ment. Audit staff are located in headquarters and field offices across the country.




                                                                       Semiannual Report to Congress  •  79
  Investigations
  The Office of the Principal Assistant Inspector General for Investigations.

  This office supervises and conducts OIG investigative activities related to DOT programs and opera-
  tions. This office is divided according to geographical areas with 7 major regional office locations
  across the country except for one office located in HQ which conducts nationwide special investiga-
  tions and analysis as well as managing the OIG Hotline Complaint Center and activities generated by
  the complaints.




  The support units are:

  The Office of the Assistant Inspector General for Legal, Legislative and External Affairs.

  This office provides a full-range of professional legal services and advice, facilitates communications
  with Congress, and manages public and external affairs.

  The Office of the Assistant Inspector General for Administration.

  This office is divided into 4 sub-offices. They are the Office of Procurement and Administrative Ser-
  vices, the Office of Budget and Financial Management, the Office of Human Resources, and the Office
  of Information Technology Management.

  The Office of Quality Assurance Reviews and Internal Affairs.

  This office under the direction of the Deputy Inspector General ensures that internal operations and
  functions are performed objectively and in an efficient and effective manner.




80   •  Mission and Organization
                                                                    Mission and Organization
                                                                          Mission and Organization (cont.)



                                                      Inspector General




                                                           Deputy
                                                      Inspector General




     Principal                             Principal Assistant      Assistant Inspector
                                                                                               Assistant Inspector
Assistant Inspector                        Inspector General         General for Legal,
                                                                                                   General for
    General for                              for Auditing &           Legislative, and
                                                                                                 Administration
  Investigations                               Evaluation             External Affairs




    Assistant             Assistant            Assistant             Assistant            Assistant             Assistant
    Inspector             Inspector            Inspector             Inspector            Inspector
                                                                                                                Inspector
   General for           General for          General for           General for       General for Rail &
                                                                                                               General for
   Washington              Aviation            Financial              Highway             Maritime
                                                                                        Programs and          Acquisition &
  Investigative           & Special          & Information           & Transit
                                                                                      Economic Analysis       Procurement
   Operations            Programs             Technology            Programs




                      Deputy Assistant                           Deputy Assistant
                          Inspector                                 Inspector
                         General for                             General for High-
                      Aviation & Special                          way & Transit
                          Programs                                  Programs




                                                                                     Semiannual Report to Congress  •  81
                                         Contacts

          Inspector General
          Calvin L. Scovel III ……………………………………………………………… (202) 366-1959

          Deputy Inspector General
          David A. Dobbs ………………………………………………………………… (202) 366-6767

          Assistant Inspector General for Legal, Legislative, and External Affairs
          Brian A. Dettelbach …………………………………………………………… (202) 366-8751

          Principal Assistant Inspector General for Auditing and Evaluation
          Ann Calvaresi-Barr ……………………………………………………………… (202) 366-1427

          Assistant Inspector General for Investigations
          Timothy Barry …………………………………………………………………… (202) 366-1967

          Assistant Inspector General for Washington Investigative Operations
          Robert Westbrooks (Acting) …………………………………………………… (202) 366-1972

          Assistant Inspector General for Aviation and Special Programs
          Lou Dixon………………………………………………………………………… (202) 366-0500

          Deputy Assistant Inspector General for Aviation and Special Programs
          Matt Hampton…………………………………………………………………… (202) 366-1987

          Assistant Inspector General for Financial and Information Technology
          Rebecca C. Leng ……………………………………………………………… (202) 366-1407

          Assistant Inspector General for Highway and Transit Programs
          Joe Come ……………………………………………………………………… (202) 366-5630

          Deputy Assistant Inspector General for Highway and Transit Programs
          Rosalyn Millman ………………………………………………………………… (202) 366-5630

          Assistant Inspector General for Rail and Maritime Programs and Economic Analysis
          Mitchel Behm (Acting) ………………………………………………………… (202) 366-9970

          Assistant Inspector General for Acquisition and Procurement
          Mark Zabarsky ………………………………………………………………… (202) 366-5225

          Assistant Inspector General for Administration
          Susan Dailey …………………………………………………………………… (202) 366-1748




82   •  Contacts
                                                   Abbreviations




AF-OSI   Air Force Office of Special Investigations
AIP      Airport Improvement Program
AIR-21   Aviation Investment and Reform Act for the 21st Century
ARRA     American Recovery and Reinvestment Act
ASAP     Aviation Safety Action Programs
ATC      Air Traffic Control
ATO      Air Traffic Organization
ATOS     Air Transportation Oversight System
CDLIS    Commercial Drivers License Information System
CDL      Commercial Drivers License
CFO      Chief Financial Officer
CID      Criminal Investigations Division
CIO      Chief Information Officer
DBE      Disadvantaged Business Enterprise
DCAA     Defense Contract Audit Agency
DCIS     Defense Criminal Investigative Service
DHS      Department of Homeland Security
DOJ      Department of Justice
DOT      Department of Transportation
EPA      Environmental Protection Agency
FAA      Federal Aviation Administration
FBI      Federal Bureau of Investigation
FHWA     Federal Highway Administration
FISMA    Federal Information Security Management Act
FMCSA    Federal Motor Carrier Safety Administration
FRA      Federal Railroad Administration
FTA      Federal Transit Administration
FY       Fiscal Year
GAO      Government Accountability Office
HAZMAT   Hazardous Material
HTF      Highway Trust Fund




                                            Semiannual Report to Congress  •  83
                   IG         Inspector General
                   IRB        Investment Review Board
                   IRS        Internal Revenue Service
                   IT         Information Technology
                   JPDO       Joint Planning and Development Office
                   MARAD      Maritime Administration
                   MOU        Memorandum of Understanding
                   NAFTA      North American Free Trade Agreement
                   NATCA      National Air Traffic Controllers Association
                   NAS        National Airspace System
                   NCIS       Naval Criminal Investigative Service
                   NHTSA      National Highway Traffic Safety Administration
                   NTSB       National Transportation Safety Board
                   OA         Operating Administration
                   OCIO       Office of Chief Information Office
                   OIG        Office of Inspector General
                   OMB        Office of Management and Budget
                   OPM        Office of Personnel Management
                   OSI        Office of Special Investigations
                   OST        Office of the Secretary of Transportation
                   PCIE       President’s Council on Integrity and Efficiency
                   PHMSA      Pipeline and Hazardous Materials Safety Administration
                   QCR        Quality Control Review
                   RITA       Research and Innovative Technology Administration
                   SAS-70     Statement on Auditing Standards Number 70
                   SafeStat   Safety Status Measurement System
                   SLSDC      St. Lawrence Seaway Development Corporation




84   •  Abbreviations
                                                                   Office Of inspectOr General
                                                                   U.S. Department of Transportation




                                             Semiannual Report to Congress
                                             April 1, 2009 – September 30, 2009




   U.S. Department of Transportation

      Office of Inspector General

     1200 New Jersey Avenue, S.E.

        Washington, D.C. 20590


Hotline to report fraud, waste, and abuse:
      Phone     800-424-9071

         Fax    540-373-2090

       Email    hotline@oig.dot.gov

 OIG Website    http://www.oig.dot.gov

